<html>
<title> - DISCUSSION DRAFT OF H.R. ______,"COMMUNITY RECLAMATION PARTNER-SHIPS  ACT"</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








 
 DISCUSSION DRAFT OF H.R. _____, ``COMMUNITY RECLAMATION PARTNERSHIPS 
                                 ACT''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Wednesday, May 24, 2017

                               __________

                            Serial No. 115-8

                               __________

       Printed for the use of the Committee on Natural Resources


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
      
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-554 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
   





















                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  Jimmy Panetta, CA
Garret Graves, LA                    A. Donald McEachin, VA
Jody B. Hice, GA                     Anthony G. Brown, MD
Aumua Amata Coleman Radewagen, AS    Wm. Lacy Clay, MO
Darin LaHood, IL
Daniel Webster, FL
David Rouzer, NC
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                      PAUL A. GOSAR, AZ, Chairman
            ALAN S. LOWENTHAL, CA, Ranking Democratic Member

Louie Gohmert, TX                    Anthony G. Brown, MD
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Niki Tsongas, MA
Stevan Pearce, NM                    Jared Huffman, CA
Glenn Thompson, PA                   Donald S. Beyer, Jr., VA
Scott R. Tipton, CO                  Darren Soto, FL
Paul Cook, CA                        Nanette Diaz Barragan, CA
  Vice Chairman                      Vacancy
Bruce Westerman, AR                  Vacancy
Garret Graves, LA                    Raul M. Grijalva, AZ, ex officio
Jody B. Hice, GA
Darin LaHood, IL
Liz Cheney, WY
Rob Bishop, UT, ex officio
                                 ------        
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, May 24, 2017..........................     1

Statement of Members:
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     3

    Lowenthal, Hon. Alan S., a Representative in Congress from 
      the State of California....................................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Kay, Thom, Senior Legislative Representative, Appalachian 
      Voices, Boone, North Carolina..............................    12
        Prepared statement of....................................    13

    Stefanko, John, Deputy Secretary for the Office of Active and 
      Abandoned Mine Operations, Pennsylvania Department of 
      Environmental Protection, Harrisburg, Pennsylvania, on 
      behalf of the Interstate Mining Compact Commission and 
      National Association of Abandoned Mine Land Programs.......    16
        Prepared statement of....................................    18
        Questions submitted for the record.......................    24

    Wood, Chris, President/Chief Executive Officer, Trout 
      Unlimited, Arlington, Virginia.............................     7
        Prepared statement of....................................     8




  LEGISLATIVE HEARING ON DISCUSSION DRAFT OF H.R. _____, TO AMEND THE 
    SURFACE MINING CONTROL AND RECLAMATION ACT OF 1977 TO AUTHORIZE 
   PARTNERSHIPS BETWEEN STATES AND NON-GOVERNMENTAL ENTITIES FOR THE 
PURPOSE OF RECLAIMING AND RESTORING LAND AND WATER RESOURCES ADVERSELY 
  AFFECTED BY COAL MINING ACTIVITIES BEFORE AUGUST 3, 1977, AND OTHER 
          PURPOSES, ``COMMUNITY RECLAMATION PARTNERSHIPS ACT''

                              ----------                              


                        Wednesday, May 24, 2017

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:12 p.m., in 
room 1324, Longworth House Office Building, Hon. Paul Gosar 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Gosar, Pearce, Thompson, Tipton, 
Westerman, Hice, LaHood; Lowenthal, Beyer, and Barragan.
    Dr. Gosar. The Subcommittee on Energy and Mineral Resources 
will come to order. The Subcommittee is meeting today to hear 
testimony on the discussion draft of the Community Reclamation 
Partnerships Act.
    Under Committee Rule 4(f), any oral opening statements at 
the hearing are limited to the Chairman, the Ranking Minority 
Member, and the Vice Chair. This will allow us to hear from our 
witnesses sooner, and help Members keep to their schedules. 
Therefore, I ask unanimous consent that all other Members' 
opening statements be made part of the hearing record, if they 
are submitted to the Subcommittee Clerk by 5:00 p.m. today.
    Without objection, so ordered.

   STATEMENT OF THE HON. PAUL A. GOSAR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Dr. Gosar. Today the Subcommittee will consider our 
discussion draft of the Community Reclamation Partnerships Act. 
This bill would amend the Surface Mining Control and 
Reclamation Act of 1977, or SMCRA, to enable states to partner 
with non-governmental entities to reclaim abandoned mine sites 
and facilitate acid mine drainage cleanup across the country.
    Currently, state reclamation activities are funded solely 
by fees levied on the coal industry. These fees have resulted 
in the reclamation of approximately $4 billion of abandoned 
mine land, or AML, liabilities.
    However, according to the Department of the Interior, over 
6,650 AML sites remain, with an estimated remediation cost 
exceeding $10.5 billion. These abandoned mines pose threats to 
the surrounding communities, and prohibit opportunities for 
further development.
    Because these sites were abandoned before the era of modern 
regulation and there are no current liable parties, the states 
are responsible for reclaiming these sites and restoring the 
environmental quality of the surrounding areas. The cost of 
reclaiming these sites will continue to strain state resources 
in the coming decades, and the condition of these sites will 
only worsen over time.
    Non-government entities have recognized the need for 
reclamation in coal communities and are willing to contribute 
their resources and expertise to address the problem. 
Unfortunately, liability and regulatory concerns have 
discouraged them from partnering with states on reclamation 
projects. This legislation will enable NGO participation in 
state reclamation programs by minimizing undeserved liability 
and codifying proven practices established by the state 
reclamation agencies.
    This legislation would recognize non-governmental entities 
who wish to conduct reclamation projects, including watershed 
groups, conservation organizations, and industry partners, as 
``Community Reclaimers.'' It will allow the state to extend 
liability protection to these entities, much like they already 
do for their approved reclamation contractors.
    This legislation also addresses common problems that states 
experience in addressing water pollution at AML sites. One of 
the most challenging aspects of mine reclamation is the 
treatment of acid mine drainage discharges. Currently, states 
are required to fully comply with the Clean Water Act when 
treating water at AML sites. While the water quality at AML 
sites can be improved, it will never reach Clean Water Act 
standards, even with the best water treatment systems in place. 
As a result, states must choose between risking non-compliance 
under the Clean Water Act, or foregoing acid mine drainage 
abatement projects all together.
    Some states have addressed this problem by establishing 
their own guidelines for the treatment of water pollution at 
AML sites. These state-specific strategies have resulted in 
successful water treatment projects and a significant reduction 
in acid mine drainage in several states.
    However, these states risk subjecting their programs to 
suit, due to the lack of any statutory authorization for their 
water treatment programs. This legislation would statutorily 
recognize the practice of crafting acid mine drainage treatment 
strategies in each state.
    These strategies must be laid out in the form of a 
Memorandum of Understanding between the relevant state and 
Federal agencies and approved by the EPA and Department of the 
Interior. Community Reclaimers will be able to execute acid 
mine drainage projects consistent with the approved MOUs in 
each state.
    I would like to note that this legislation does not allow 
for re-mining in conjunction with Community Reclaimer projects. 
SMCRA already allows for the regulation of re-mining 
activities, and this legislation does not in any way amend the 
existing requirements. Should mining companies choose to serve 
as Community Reclaimers, they will not be able to conduct 
mining activity in the course of completing a reclamation 
project, and they must not have any outstanding SMCRA 
violations.
    Today, we will hear from Mr. Stefanko, Deputy Secretary for 
the Office of Active and Abandoned Mine Operations at 
Pennsylvania's Department of Environmental Protection. In his 
role, Mr. Stefanko is responsible for overseeing the state's 
Abandoned Mine Reclamation Program. He will discuss his 
program's experience with allowing non-governmental entities to 
reclaim AML sites, current challenges in cleaning up acid mine 
drainage, and the need for Community Reclaimers in states like 
Pennsylvania.
    We will also hear from Mr. Chris Wood, President and CEO of 
Trout Unlimited. Trout Unlimited is a national organization 
dedicated to conservation and fisheries restoration that has 
partnered with several states on abandoned mine land projects. 
Mr. Wood will discuss the ability of non-governmental entities 
like Trout Unlimited to serve as Community Reclaimers, and the 
environmental benefits that these partnerships will yield for 
communities nationwide.

    [The prepared statement of Dr. Gosar follows:]
Prepared Statement of the Hon. Paul A. Gosar, Chairman, Subcommittee on 
                      Energy and Mineral Resources

    Today, the Subcommittee will consider a discussion draft of the 
Community Reclamation Partnerships Act. This bill would amend the 
Surface Mining Control and Reclamation Act of 1977 (SMCRA) to enable 
states to partner with non-governmental entities to reclaim abandoned 
mine sites and facilitate acid mine drainage cleanup across the 
country.
    Currently, state reclamation activities are funded solely by fees 
levied on the coal industry. These fees have resulted in the 
reclamation of approximately $4 billion of abandoned mine land, or AML, 
liabilities. However, according to the Department of the Interior, over 
6,650 AML sites remain with estimated remediation costs exceeding $10.5 
billion. These abandoned mines pose threats to the surrounding 
communities and prohibit opportunities for further development. Because 
these sites were abandoned before the era of modern regulation and 
there are no current liable parties, the states are responsible for 
reclaiming these sites and restoring the environmental quality of the 
surrounding areas. The cost of reclaiming these sites will continue to 
strain state resources in the coming decades and the conditions of 
these sites will only worsen over time.
    Non-governmental entities have recognized the need for reclamation 
in coal communities and are willing to contribute their resources and 
expertise to address the problem. Unfortunately, liability and 
regulatory concerns have discouraged them from partnering with the 
states on reclamation projects. This legislation will enable NGO 
participation in state reclamation programs by minimizing undeserved 
liability and codifying proven practices established by the state 
reclamation agencies.
    This legislation would recognize non-governmental entities who wish 
to conduct reclamation projects, including watershed groups, 
conservation organizations and industry partners, as ``Community 
Reclaimers.'' It will allow the state to extend liability protection to 
these entities, much like they already do for their approved 
reclamation contractors.
    This legislation also addresses common problems that states 
experience in addressing water pollution at AML sites. One of the most 
challenging aspects of mine reclamation is the treatment of acid mine 
drainage discharges. Currently, states are required to fully comply 
with the Clean Water Act when treating water at AML sites. While the 
water quality at AML sites can be improved, it will never reach Clean 
Water Act standards, even with the best water treatment systems in 
place. As a result, states must choose between risking noncompliance 
under the Clean Water Act or foregoing acid mine drainage abatement 
projects altogether.
    Some states have addressed this problem by establishing their own 
guidelines for the treatment of water pollution at AML sites. These 
state-specific strategies have resulted in successful water treatment 
projects and a significant reduction in acid mine drainage in several 
states. However, these states risk subjecting their programs to suit 
due to the lack of any statutory authorization for their water 
treatment programs. This legislation would statutorily recognize the 
practice of crafting acid mine drainage treatment strategies in each 
state. These strategies must be laid out in the form of a Memorandum of 
Understanding between the relevant state and Federal agencies and 
approved by the EPA and Department of the Interior. Community 
Reclaimers will be able to execute acid mine drainage projects 
consistent with the approved MOUs in each state.
    I would like to note that this legislation does not allow for re-
mining in conjunction with Community Reclaimer projects. SMCRA already 
allows for the regulation of re-mining activities and this legislation 
does not in any way amend the existing requirements. Should mining 
companies choose to serve as Community Reclaimers, they will not be 
able to conduct mining activity in the course of completing a 
reclamation project, and they must not have any outstanding SMCRA 
violations.
    Today, we will hear from Mr. John Stefanko, Deputy Secretary for 
the Office of Active and Abandoned Mine Operations at the Pennsylvania 
Department of Environmental Protection. In his role, Mr. Stefanko is 
responsible for overseeing the States' Abandoned Mine Reclamation 
Program. He will discuss his program's experience with allowing non-
governmental entities to reclaim AML sites, current challenges in 
cleaning up acid mine drainage, and the need for Community Reclaimers 
in states like Pennsylvania.
    We will also hear from Mr. Chris Wood, President and CEO of Trout 
Unlimited. Trout Unlimited is a national organization dedicated to 
conservation and fisheries restoration that has partnered with several 
states on abandoned mine land projects. Mr. Wood will discuss the 
ability of non-governmental entities like Trout Unlimited to serve as 
Community Reclaimers and the environmental benefits that these 
partnerships will yield for communities nationwide.

                                 ______
                                 

    Dr. Gosar. The Chairman now recognizes the Ranking Member 
for any statement. The gentleman from California is recognized.

 STATEMENT OF THE HON. ALAN S. LOWENTHAL, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Dr. Lowenthal. Thank you, Mr. Chairman. The draft of the 
bill before us today is an interesting and potentially 
promising tool to help address one of the big questions that 
confronts the issue of cleaning up abandoned mines. Namely, how 
can we allow Good Samaritans--people who had nothing to do with 
causing the pollution--how can we allow them to help with 
cleaning up these sites?
    There is no question that help is needed. Reclaiming all of 
the remaining abandoned coal mines in this country would cost 
an estimated $10 billion.
    Reclaiming our abandoned hardrock mines would be even more 
expensive, with an estimated cost of anywhere from $20 to $54 
billion. The Gold King Mine incident was just the most visible 
example of why this immense responsibility needs to be taken on 
in a serious way, and it needs to be done soon.
    Volunteers, whether we call them Good Samaritans, Community 
Reclaimers, or anything else, will simply not be enough to 
tackle this problem.
    Coal companies, at least, chip in to the Abandoned Mine 
Land Fund to help address the legacy of centuries of 
unreclaimed coal mines. Unfortunately, hardrock mining 
companies do not contribute to help cover the enormous cost of 
cleaning up their own legacy of pollution, which are the over 
half-million abandoned gold, silver, copper, and other mines 
that each day poison rivers and streams throughout the country 
with millions of gallons of toxic water containing lead, 
arsenic, cadmium, and other metals.
    The hardrock mining industry has also continually fought 
efforts to hold them accountable for these sites. That needs to 
change.
    Last Congress, Ranking Member Grijalva and I introduced the 
Hardrock Mining Reform and Reclamation Act, which, among other 
things, would require the hardrock mining industry to pony up 
and pitch in like the coal industry has done. Frankly, that is 
the only way we are going to make a significant dent in this 
problem.
    Particularly, I raise this, since the Administration has 
now decided that cleaning up abandoned hardrock mines is not a 
priority. The President has proposed a cut of nearly $11 
million for the Bureau of Land Management's Abandoned Mine 
Lands Program, more than half--and I repeat that, more than 
half--of the budget of that already underfunded program.
    Mr. Chairman, I hope that this is an issue that we can look 
at in more depth this Congress. As for the bill we are 
discussing today, this is a novel approach to addressing the 
Good Samaritan issue, and I thank Mr. LaHood for proposing it, 
and you, the Chairman, for holding a hearing on it. Having 
Community Reclaimers partner with states under their abandoned 
mine land programs could potentially provide the liability 
protections that these Good Samaritans need to undertake in a 
number of helpful projects.
    However, I don't believe it is entirely clear how this bill 
would work. It appears that the bill would provide a broad 
waiver for projects that do not meet Clean Water Act standards 
if there is a Memorandum of Understanding between the state and 
the Federal Government. Unfortunately, there is very little 
detail in the bill about what these memoranda would contain. 
The only requirement seems to be that the Secretary of the 
Interior and the Administrator of the Environmental Protection 
Agency find that a memorandum would help facilitate additional 
work under the state's Abandoned Coal Mine Reclamation Plan.
    But there are a lot of ways that we could do that. And it 
is not clear if there are protections to keep coal companies 
from using this as a way to re-mine old sites without having to 
comply with the Clean Water Act.
    I understand that is not the intent of this bill, so I hope 
we can work together, guided by some of the comments of the 
testimony provided by our witnesses today, to craft something 
that is bipartisan and that can have a real and lasting 
positive impact.
    Thank you to the witnesses for being here, and I yield back 
the balance of my time.

    [The prepared statement of Dr. Lowenthal follows:]
   Prepared Statement of the Hon. Alan S. Lowenthal, Ranking Member, 
              Subcommittee on Energy and Mineral Resources
    Thank you, Mr. Chairman.
    The draft of the bill before us today is an interesting and 
potentially promising tool to help address one of the big questions 
that confronts the issue of cleaning up abandoned mines. Namely, how 
can we allow Good Samaritans--people who had nothing to do with causing 
the pollution--how can we allow them to help with cleaning up these 
sites?
    There is no question that help is needed. Reclaiming all of the 
remaining abandoned coal mines in this country would cost an estimated 
$10 billion.
    Reclaiming our abandoned hardrock mines would be even more 
expensive, with an estimated cost of anywhere from $20 to $54 billion. 
The Gold King Mine incident was just the most visible example of why 
this immense responsibility needs to be taken on in a serious way, and 
it needs to be done soon.
    Volunteers, whether we call them Good Samaritans, Community 
Reclaimers, or anything else, will simply not be enough to tackle this 
problem.
    Coal companies, at least, chip in to the Abandoned Mine Land fund 
to help address the legacy of centuries of unreclaimed coal mines. 
Unfortunately, hardrock mining companies do not contribute to help 
cover the enormous cost of cleaning up their own legacy of pollution, 
which are the over half-million abandoned gold, silver, copper, and 
other mines that each day poison rivers and streams throughout the 
country with millions of gallons of toxic water containing lead, 
arsenic, cadmium, and other metals.
    The hardrock mining industry has also continually fought efforts to 
hold them accountable for these sites. That needs to change.
    Last Congress, Ranking Member Grijalva and I introduced the 
Hardrock Mining Reform and Reclamation Act, which among other things 
would require the hardrock mining industry to pony up and pitch in like 
the coal industry has done. Frankly, that is the only way that we will 
make a significant dent in this problem.
    Particularly since the Administration has decided that cleaning up 
abandoned hardrock mines isn't a priority. The President has proposed a 
cut of nearly $11 million for the Bureau of Land Management's Abandoned 
Mine Lands program, more than half of the budget of that already 
underfunded program.
    Mr. Chairman, I hope that this is an issue that we can look at in 
more depth this Congress. As for the bill we are discussing today, this 
is a novel approach to addressing the Good Samaritan issue, and I thank 
Mr. LaHood for proposing it and the Chairman for holding a hearing on 
it. Having Community Reclaimers partner with states under their 
Abandoned Mine Land programs could potentially provide the liability 
protections that these Good Samaritans need to undertake a number of 
helpful projects.
    However, I don't believe it is entirely clear how this bill would 
work. It appears that the bill would provide a broad waiver for 
projects that don't meet Clean Water Act standards if there is a 
Memorandum of Understanding between the state and the Federal 
Government. Unfortunately, there is very little detail in the bill 
about what these memoranda would contain. The only requirement seems to 
be that the Secretary of the Interior and the Administrator of the 
Environmental Protection Agency find that a memorandum would help 
facilitate additional work under the State's Abandoned Coal Mine 
Reclamation Plan.
    But there are a lot of ways that you could do that. And it's not 
clear if there are protections to keep coal companies from using this 
as a way to re-mine old sites without having to comply with the Clean 
Water Act.
    I understand that isn't the intent of this bill, so I hope we can 
work together, guided by some of the comments in the testimony provided 
by our witnesses today, to craft something that is bipartisan and can 
have a real and lasting positive impact.
    Thank you to the witnesses for being here, and I yield back the 
balance of my time.

                                 ______
                                 

    Dr. Gosar. I thank the gentleman. Now I will introduce our 
witnesses.
    First, Mr. Chris Wood, President and Chief Executive 
Officer for Trout Unlimited.
    Mr. Thom Kay, Senior Legislative Representative for 
Appalachian Voices.
    And third, Mr. John Stefanko, Deputy Secretary for the 
Office of Active and Abandoned Mine Operations, Pennsylvania 
Department of Environmental Protection.
    Let me remind the witnesses that, under our Committee 
Rules, they must limit their oral statements to 5 minutes. But 
their entire statement will appear in the hearing record.
    Our microphones are not automatic. You will need to press 
the talk button when you begin your testimony. When you begin, 
the light on the witness microphone will turn green, and after 
4 minutes will turn yellow, subsequently followed by the red 
light. Summarize your statements from there on, and hopefully 
keep it to that aspect.
    I would like to now recognize Mr. Wood for his testimony.
    Good seeing you again, Chris.

  STATEMENT OF CHRIS WOOD, PRESIDENT/CHIEF EXECUTIVE OFFICER, 
              TROUT UNLIMITED, ARLINGTON, VIRGINIA

    Mr. Wood. Thank you, Chairman Gosar, Ranking Member 
Lowenthal, and Subcommittee members. My testimony is on behalf 
of Trout Unlimited and our 300,000 members and supporters 
around the country. I want to thank you for inviting us to be 
here today.
    TU's mission is to conserve, protect, and restore trout and 
salmon fisheries and the watersheds that they depend on. I have 
often referred to TU as the patron saint of forgotten 
environmental causes. And our work to clean up abandoned mines, 
whether they are in the coal fields of Appalachia or hardrock 
mining lands in the Rocky Mountains, is a testament of that.
    [Slide]
    Mr. Wood. As you can see from this map that is on the 
screen here, abandoned coal mines are a pervasive problem all 
across the country, not just in Appalachia.
    Next slide, please.
    [Slide]
    Mr. Wood. The Gold King spill in Colorado several years ago 
made national news. But the stream on the left is a typical 
representation, and it is all too familiar from any landowners 
across Appalachia and the rest of the country. These yellow 
streams and red streams occur outside of the media's view, but 
all around the country.
    Cleaning up these mines is pretty straightforward. As the 
picture on the upper right shows, you can run them through 
these passive treatment systems and constructed wetlands, and 
the result is that you can recover native species such as the 
brook trout, down in the lower-right corner. We are quite proud 
of the fact that in Pennsylvania, because of our work on a 
watershed called Kettle Creek, we were able to recover over 6 
miles of spawning and rearing habitat for brook trout that had 
been lost for over a century to abandoned mine waste.
    Next slide, please.
    [Slide]
    Mr. Wood. This map shows what is possible. Kettle Creek, 
that I just mentioned, is a small part of the West Branch of 
the Susquehanna watershed, which drains about 20 percent of the 
Commonwealth of Pennsylvania. The line in red represents the 
river from the 1980s. If you can't read the chart, essentially 
the entire river was acidic to one degree or another.
    Today, that is not the case. You can see the progress that 
has been made over the past decades as a result of the 
partnership between the state, dozens of watershed groups, and 
organizations like Trout Unlimited.
    Much, much more work remains to be done, in spite of the 
success that we have had on the West Branch. In the West Branch 
alone, we have over 1,000 miles of acidic streams that need to 
be treated. These are particularly important for brook trout. 
And we have over 5,000 miles in the rest of the Commonwealth 
that are also in need of treatment.
    Next slide, please.
    [Slide]
    Mr. Wood. This work not only cleans our water, it provides 
thousands of high-paying, family wage jobs in rural areas. And, 
of course, it makes the fishing better, which, in turn, drives 
a significant recreation economy, which everyone benefits from.
    We are very grateful, Representative LaHood and Chairman 
Gosar, for your continued leadership on this issue, and we 
appreciate the willingness of the authors to allow for some 
discussion of this bill. These deliberations, we think, will 
lead to strong bipartisan support for a very, very good draft.
    This draft is a significant step in the right direction. It 
must work well on the ground, of course, and we are looking 
forward to having a little bit of time to give you more 
detailed comments from our practitioners in the field. We will 
offer some additional feedback in the coming days, but we are 
quite confident that the finished, introduced bill will be 
worthy of the Subcommittee's strong consideration and eventual 
approval.
    Just three points that we would like to highlight here for 
the balance of my time.
    Number one, we think the bill should consider some process 
for grandfathering some of the 250 projects that are already 
ongoing in the state of Pennsylvania through the MOU process.
    Number two, we would like to ensure that there is strong 
public involvement in the development of these MOUs. We think 
that consent of the people in these areas is really important 
to getting good, solid projects.
    And then, finally, we would like to see qualifying private 
landowners eligible to become Community Reclaimers in their own 
right. It was unclear from the draft if that is intended.
    Improving the Nation's water quality is a goal that every 
American shares. We are pleased that the Subcommittee is 
looking at one of the more vexing water quality problems in the 
country right now, and we stand ready to work with you to 
promote clean and fishable waters across the country.
    Thank you for considering our views, and thank you for 
working on these most important matters.

    [The prepared statement of Mr. Wood follows:]
  Prepared Statement of Chris Wood, President/CEO of Trout Unlimited, 
                          Arlington, Virginia
    Chairman Gosar, Ranking Member Lowenthal, and Subcommittee Members: 
my name is Chris Wood. I am the President and CEO of Trout Unlimited. 
Thank you for the opportunity to testify today on abandoned coal mine 
cleanup legislation.
    I offer the following testimony on behalf of Trout Unlimited and 
its nearly 300,000 members and supporters nationwide. My testimony will 
focus on the Discussion Draft (Draft Bill), cleanup of abandoned coal 
mine lands and water, and specifically the need to facilitate abandoned 
coal mine cleanups by Community Reclaimers (also often known as ``Good 
Samaritans'')--those individuals or entities who have no legal 
obligation to take on an abandoned mine cleanup, but who wish to do so 
in order to improve water quality and watershed health.
    We deeply appreciate the Subcommittee's focus on this issue, and we 
urge the Subcommittee to continue to work with us, the states, the 
Interior Department, the EPA, and other stakeholders on such a bill to 
help provide an important tool to facilitate cleanups.
    TU's mission is to conserve, protect and restore North America's 
trout and salmon fisheries and the watersheds they depend on. In 
pursuit of this mission, TU has worked to restore streams and rivers 
damaged by pollution from abandoned mines from the Appalachian 
coalfields in Pennsylvania to the hardrock mining areas of the Rocky 
Mountain states, and my testimony is based upon these experiences. TU 
stands ready to expand our work to clean up abandoned mine pollution, 
and we need such legislation to make it happen.
    We are grateful for the Draft Bill, and the leadership of its 
authors, Representative LaHood and Chairman Gosar. It is a thoughtful 
approach and a workable, new model. We appreciate the willingness of 
the authors to allow for ample discussion of the draft. We hope that 
the deliberations will lead to strong, bipartisan support for the bill.
    There is room for improvement in some areas, but we regard the 
draft as a significant step that is headed in the right direction. It 
must work well on the ground, of course, and as our field practitioners 
are studying the Draft Bill, we will offer additional feedback in the 
coming days. We are confident that the finished, introduced bill will 
be worthy of the Subcommittee's strong consideration and eventual 
approval.
  abandoned mine pollution is a widespread problem but much of it is 
                                fixable
    Americans want clean water. Trout Unlimited members give 
substantial amounts of their time and treasures to protecting and 
restoring trout watersheds. But even a cursory look at the damages to 
our streams, rivers and groundwater caused by pollution from abandoned 
coal and hardrock mines show that we have a long way to go to achieve 
clean water for all. There is no better time than right now, as the new 
Trump administration and the 115th Congress discuss including water 
cleanup work as part of an infrastructure package, to address clean up 
of pollution from abandoned coal mine.
    Sadly, much of abandoned mine pollution is ``out of sight, out of 
mind.'' But in August 2015, we received a vivid view of the mess. The 
3-million gallons spill of polluted water from the Gold King mine near 
Silverton, Colorado showed the world what TU members and staff who live 
in mining country see every day: Orange, polluted water leaking out 
from abandoned mines.
    Cleaning up abandoned mines is challenging and expensive. That does 
not make it any less imperative. The legacy of historical mining 
practices--thousands of abandoned coal and hardrock mines with an 
estimated cleanup cost in the billions of dollars--has persisted for 
the better part of a century with insufficient progress toward a 
solution.
    Abandoned coal mines dot the Appalachian landscape. Pollution from 
abandoned coal mines continues to damage thousands of miles of streams 
and rivers--over 10,000 miles just within Pennsylvania and West 
Virginia--and while much has been accomplished through the Surface 
Mining Control and Reclamation Act's (SMCRA) extremely valuable 
Abandoned Mine Lands Fund (AML Fund), a great deal more remains to be 
done. The cost of cleanup in Pennsylvania alone has been estimated as 
high as $15 billion.\1\
---------------------------------------------------------------------------
    \1\ http://pa.water.usgs.gov/projects/energy/amd/.
---------------------------------------------------------------------------
    A reclamation fee, paid by the mining companies, is collected for 
each ton of coal produced to support the AML Fund. Since 1977, more 
than $10.5 billion has been put to good use making safe and cleaning up 
abandoned coal mines.
    We have developed a number of model projects that can be easily 
replicated. In Pennsylvania, aided by state-based Good Samaritan 
policy, watershed groups, including Trout Unlimited, are working with 
state agencies, communities, and other partners to conduct more than 
250 abandoned coal mine pollution projects throughout the state. We can 
do lot more if the problem is fixed.
 our best environmental law, the clean water act, can be a barrier to 
                      abandoned coal mine cleanup
    There are many projects where water quality could be improved by 
collecting run-off, or taking an existing discrete discharge, and 
running the polluted water through a treatment system. However, for 
would-be Community Reclaimers, Clean Water Act (CWA) compliance and 
liability issues remain a barrier to such projects. Several courts have 
held that discharges from systems that treat wastewater from abandoned 
mines are point source discharges that require a National Pollutant 
Discharge Elimination System (NPDES) permit under section 402 of the 
CWA. Although EPA and some eastern states have not considered such 
projects to be point sources requiring NPDES permits, the Fourth 
Circuit's 2010 decision in West Virginia Highlands Conservancy, Inc. v. 
Huffman creates some uncertainty around that approach.
    Stakeholders in projects involving treatment of mine drainage have 
been held back because of CWA liability for two reasons. First, NGOs, 
including TU, are not well suited to apply for and hold permits for 
such projects. TU does not have an adequate funding mechanism to 
legally bind itself to pay for the perpetual costs associated with 
operating a water-treatment facility and permit compliance.
    Second, for many projects it may be impossible to obtain a permit, 
because the treatment systems, even if they will improve conditions, 
may not be able to treat abandoned mine wastewater to a level that 
meets all applicable water quality standards or other applicable 
criteria. It should be noted that while these treatment systems are 
certainly capable of producing water that will support a healthy 
fishery, the resulting water quality might not meet CWA standards for 
some pollutants that are particularly difficult to remove from mine 
waste (for example, passive wetland systems that effectively treat 
highly polluted water often leave levels of manganese that do not 
comply with CWA standards).
    This is not to say that CWA standards should be weakened; just the 
opposite, in fact. But there should be incentives for would-be 
Community Reclaimers to make water cleaner even if still short of full 
CWA standards. Put another way, Federal law should provide incentives 
for would be Good Samaritans to make our water cleaner and communities 
safer.
  good projects could be expanded and replicated with effective good 
                       samaritan policy for coal
    In Pennsylvania, as we explain below, polluted water is being 
successfully treated and streams and rivers are being brought back to 
life because the Commonwealth has provided Good Samaritans with 
dedicated funding. We believe that we can export the Pennsylvania model 
across the rest of the country if liability concerns are eased.

    Kettle Creek, Pennsylvania. Our experiences in Pennsylvania are 
illustrative of the positive effect of Good Samaritan cleanups Over the 
past 20 years, Pennsylvania has seen an increase in abandoned mine 
reclamation projects by watershed groups, including TU. This boom has 
been fueled by funding from the state's Growing Greener grant program 
and the Federal Abandoned Mine Land (AML) reclamation fund. Most of 
these projects involve treatment of acid mine drainage using passive 
treatment systems, which run the polluted mine drainage through a 
series of limestone basins and wetlands that increase the water's pH 
and cause heavy metals to precipitate out. These projects have 
significantly improved water quality and restored fish populations in 
numerous Pennsylvania streams.
    The Pennsylvania Department of Environmental Protection estimates 
that public funding sources have paid for the construction of nearly 
250 passive treatment systems in the state, the majority of which have 
been constructed by private watershed groups, conservation districts or 
other local groups.
    Beginning in 1998, the work of TU and its partners in the lower 
Kettle Creek watershed has resulted in the reclamation of approximately 
160 acres of scarred abandoned mine lands and installation of nine 
treatment systems that successfully improved mine water polluted with 
high levels of acidity and metals. The results to date have been 
tremendous, with water quality restored to 3 miles of previously dead 
streams and 6 miles of a fully reconnected and thriving native brook 
trout population.
    This story of recovery plays out again and again in individual 
streams and watersheds. Several years ago, the Babb Creek Watershed 
Association accomplished delisting 14 miles of Babb Creek, now a wild 
trout fishery, from EPA's impaired streams list. Another 14 miles in 
the Tangascootack Creek watershed is pending removal from the impaired 
streams list as a result of passive treatment systems constructed by 
the Clinton County Conservation District.
    On a much larger scale, the West Branch Susquehanna River watershed 
has made tremendous strides over the past few decades. A comparison of 
conditions in the West Branch Susquehanna in 1972 with those in 2009 
indicated that fish species increased 3,000 percent, and pH increased 
from 3.8 to 6.6.
    These improvements result in economic benefits. In Pennsylvania, 
almost $4 billion was spent on fishing, hunting, and wildlife viewing 
in 2006. A 2008 study found that full remediation of the West Branch 
Susquehanna River watershed would result in ``an additional $22.3 
million in sport fishing revenues could be expected to be generated 
each year. Additional recreation spending--over and above that for 
fishing--would be expected after remediation is completed.''
    Regardless of the overall scope of the abandoned mine problem, each 
of these projects restored a significant water body and represents a 
big win for the local community.
                      assessment of the draft bill
1. Positive Features of the Draft Bill

    <bullet> Houses the program within SMCRA and the existing AML 
            cleanup program. This will ensure that many of the positive 
            features of current AML programs will be retained.

    <bullet> The Clean Water Act liability protection mechanism for 
            Community Reclaimers is narrowly tailored, is located 
            within SMCRA, and relies on our state partners.

    <bullet> Allows eligible states to enter into abandoned mine 
            pollution clean up MOUs with Interior through the current 
            AML program, to be approved by Interior and EPA, to ensure 
            that water pollution cleanup results in a significant 
            improvement to the environment.

2. Sections of the Draft where clarifications or improvements should be 
        considered

    <bullet> The bill should ensure that ongoing, well functioning 
            projects should not have to go through the bill's approval 
            process if the states, through the MOU mechanism, certify 
            that the existing projects are being implemented 
            effectively and are improving water quality as planned. As 
            we mentioned, some 250 projects are currently functioning 
            well in Pennsylvania, and thus they should be smoothly 
            embedded in the new program with minimal additional review.

    <bullet> The bill language should clarify that adequate public 
            notice and comment is available for the draft MOUs from 
            each state, and for each project.

    <bullet> The bill should clarify that private landowners who are 
            not responsible for abandoned mine cleanup on their lands, 
            but who are willing to work cooperatively with the 
            Community Reclaimer and the state to clean up pollution 
            from abandoned mines on their land, should also receive 
            liability protection from the bill over the life of the 
            project.

    Cleanup of abandoned coal mine pollution is a long-term job, and 
long-term funding is needed to get the job done. Thus, Congress needs 
to start work on reauthorizing Title IV AML for coal. The AML fund is 
the lifeblood of funding for abandoned coal mine work in the coalfield 
areas of America, especially the East. Congress passed a very useful 
15-year reauthorization for the AML fund in 2006. Trout Unlimited and 
other stakeholders urge Congress to get started on the task of 
reauthorization now to ensure a smooth reauthorization is achieved by 
2021. Such a valuable, complex law is worth the effort needed to make 
sure the critical funding is maintained.
    Last, the Subcommittee knows well the need to have a hardrock Good 
Samaritan policy enacted to provide a critical tool for western 
abandoned mine cleanup. We appreciate the Subcommittee's work in the 
last Congress to find the solution. Under Chairman Lamborn's 
leadership, good progress was made. After the Committee passes this 
bill, we would like to see this Subcommittee take up the hardrock 
abandoned mine bookend.
                               conclusion
    Improving water quality around the Nation is a fundamental goal of 
the work of this Subcommittee, and thus we are pleased that the 
Subcommittee is looking at one of the most vexing water problems 
remaining in coal country. We stand ready to work with you so that 
affected communities around the Nation will again have clean, fishable 
waters. Thank you for considering our views, and thank you for working 
with us on these important matters.

                                 ______
                                 

    Dr. Gosar. Thank you very much.
    The Chair now recognizes Mr. Kay for his 5 minutes of 
testimony. Thank you.

   STATEMENT OF THOM KAY, SENIOR LEGISLATIVE REPRESENTATIVE, 
           APPALACHIAN VOICES, BOONE, NORTH CAROLINA

    Mr. Kay. Thank you, Chairman Gosar, Ranking Member 
Lowenthal, and members of the Committee, for the opportunity to 
testify on the discussion draft of the Community Reclamation 
Partnerships Act. I am the Senior Legislative Representative 
for Appalachian Voices, an organization working to protect the 
land, air, and water of central and southern Appalachia for 
future generations, and to one day see the region upheld as a 
national model of a vibrant, just, and sustainable economy.
    Throughout Appalachia, there is an enormous need to restore 
former coal mine lands. Abandoned mine lands from before the 
passage of SMCRA and mines that have been bond-forfeited more 
recently put large burdens on state agencies and the public. 
State agencies work hard to treat existing problems, but they 
simply do not have the resources necessary to complete the 
reclamation of millions of acres of land and thousands of miles 
of streams anytime in the near future.
    Virginia, for example, has over $400 million in remaining 
AML costs, but only receives in the ballpark of $5 million per 
year in AML grants. In order to build wealth and prosperity in 
rural communities, clean water is absolutely essential. 
Additional resources are clearly needed for states to address 
decades worth of mining pollution.
    Cleaning up mine sites has both environmental and economic 
benefits, along with creating immediate reclamation jobs and 
drawing tourism to improving the land and protecting fish and 
wildlife. Cleaning up mining pollution can help improve the 
health of local communities.
    Appalachian communities have demonstrated growing 
excitement about the lasting benefits associated with mine 
reclamation. Between the AML pilot program and the progress of 
the RECLAIM Act, communities are envisioning new, long-term 
economic opportunities that can be combined with reclamation. 
Pairing such efforts with passage of the Community Reclamation 
Partnerships Act could result not only in more cleanup, but 
also spur innovative projects in coal communities.
    It is my understanding that the bill is intended to 
encourage organizations to take on some of the heavy burden of 
treating water pollution, while also preventing mining 
companies from escaping any of the responsibilities they have 
under current law. Most importantly to Appalachian Voices is 
that this bill does not allow companies to conduct any mining 
with any reduction in standard permitting requirements under 
the Clean Water Act or SMCRA.
    In certain cases, incidental coal removal can reduce the 
overall cost of site reclamation. This should be allowed if 
reclamation leaves previously polluted streams cleaner than 
they were before, but we see no reason for any company to 
receive extra liability protection for re-mining.
    We do not believe there is an intention to allow companies 
to carry out re-mining projects under this bill; but, as 
changes are made through the legislative process, I urge the 
Committee to ensure no loopholes are created that would allow 
any company to abuse the liability waivers granted under this 
Act in order to obtain new surface mining permits at an AML 
site.
    Included in the bill's definition of a Community Reclaimer 
are sensible restrictions that would prohibit companies with 
unfulfilled reclamation obligations or outstanding violations 
from qualifying. We agree with that decision, but defining such 
persons or companies can be quite difficult. In many instances, 
a parent company may own as many as several dozen subsidiary 
mining companies.
    For example, Alpha Natural Resources owns at least 22 coal 
companies currently registered with the West Virginia Secretary 
of State. These companies all list the same manager, organizer, 
and office address, yet the state of West Virginia routinely 
treats them as individual companies. We suggest updating the 
definition to ensure that no one can get around the sensible 
restrictions in the bill by acting through a subsidiary.
    Last, there is a provision that requires a notice be 
provided to the public before the project is initiated. That is 
important, but should go further in providing an opportunity 
for people to express concerns and have them addressed by the 
state or a Community Reclaimer. After all, a notice in the mail 
can raise a lot more questions than it answers.
    Regardless of how beneficial a project might be, neighbors 
may raise legitimate issues. They deserve the chance to share 
their thoughts with the Community Reclaimer and the state, and 
to have their concerns addressed in a timely manner.
    As the Community Reclamation Partnerships Act moves 
forward, we hope you will consider our thoughts and ensure that 
re-mining is not considered eligible for liability waivers, and 
that there is proper engagement with local communities. If the 
Committee is able to sufficiently address those issues while 
providing non-governmental entities the liability coverage they 
need to help clean up Appalachian streams, then we would urge 
Congress to pass this bill quickly.
    Thank you for your time, and I look forward to your 
questions.
    [The prepared statement of Mr. Kay follows:]
Prepared Statement of Mr. Thom Kay, Senior Legislative Representative, 
                           Appalachian Voices
    Thank you Chairman Gosar, Ranking Member Lowenthal, and members of 
the Committee for the opportunity to testify on the discussion draft of 
the ``Community Reclaimers Partnership Act.''
    I am the Senior Legislative Representative for Appalachian Voices, 
an organization working to protect the land, air, and water of central 
and southern Appalachia for future generations and to one day see the 
region upheld as a national model of a vibrant, just, and sustainable 
economy.
  there is an enormous burden on state agencies to deal with existing 
                               pollution
    Throughout Appalachia, there is an enormous need to restore former 
coal mine lands. Mined land that existed prior to the passage of the 
Surface Mining Control and Reclamation Act of 1977 (SMCRA), known as 
Abandoned Mine Land (AML), and mines that have been bond-forfeited more 
recently put large burdens on state agencies and the public. State 
agencies work hard to treat existing problems, but they simply do not 
have the resources necessary to complete the reclamation of millions of 
acres of land and thousands of miles of streams anytime in the near 
future. Virginia, for example, has over $400 million in remaining AML 
costs, but only receives in the ballpark of $5 million per year in AML 
grants. While distribution totals may change once the AML program is 
reauthorized, there is no reason to believe sufficient funds will all 
of a sudden become available.
    The decline of the coal industry over the last 5 years has led to a 
staggering number of bankruptcies and associated bond forfeitures. 
SMCRA was supposed to address this issue through bonding; however, 
bonding programs in central Appalachian states remain insufficient to 
deal with the industry downturn. In many cases, bonds at individual 
mines are insufficient to cover reclamation costs, especially when 
long-term water treatment becomes necessary. Many companies have been 
allowed to self-bond, in which states rely on a ``too big to fail'' 
approach, even as many of the largest companies have gone bankrupt. In 
other cases, pool bond programs have not accounted for multiple 
forfeitures at once. While these situations would not be directly 
impacted by this bill, they are important to consider because they 
place an additional burden upon state agencies. Once a mine is bond-
forfeited, its reclamation becomes the responsibility of the state.
         clean up provides economic and environmental benefits
    In order to build wealth and prosperity in rural communities, clean 
water is absolutely essential. Additional resources are clearly needed 
for states to address decades' worth of mining pollution.
    Cleaning up mine sites can improve both surface water and 
groundwater, which has clear environmental and economic benefits. Along 
with creating immediate reclamation jobs and drawing tourism through 
improving the land and protecting fish and wildlife, cleaning up mining 
pollution can help improve the health of communities. Stream and well 
water contamination are both widespread throughout central Appalachia. 
Many rural communities do not have easy access to municipal water when 
their well water becomes contaminated. Some common contaminants, such 
as iron, are a nuisance--staining clothes and appliances orange. Other 
common contaminants, like manganese, have potential effects on 
childhood development that are only beginning to be understood. Though 
thankfully more rare, some contaminants, such as arsenic, are known 
carcinogens. Appalachian Voices has found all three of these 
contaminants, as well as many others, in private well water throughout 
the region.
    Appalachian communities have demonstrated growing excitement about 
the lasting benefits associated with mine reclamation. Between the AML 
Pilot Program and the progress of the RECLAIM Act (H.R. 1731), 
communities are envisioning new, long-term economic opportunities that 
can be paired with the reclamation of our country's Abandoned Mine 
Lands. Pairing such efforts with passage of the Community Reclaimer 
Protections Act could result not only in more cleanup, but also spur 
innovative projects in coal communities, many of which continue to 
struggle with the decline of coal mining jobs.
 the bill should not allow any company to abuse the liability waivers 
                             for re-mining
    It is my understanding that the bill is intended to allow for and 
encourage non-governmental organizations to take on some of the heavy 
burden of treating water pollution caused by coal mining before 1977, 
while also preventing mining companies from escaping any of the 
responsibilities they have under current law. Most importantly to 
Appalachian Voices is that this bill does not allow companies to 
conduct any mining with any reduction in standard permitting 
requirements under the Clean Water Act, SMCRA, or other applicable law.
    We understand that, in certain cases, incidental coal removal can 
reduce the overall cost of site reclamation and does not further 
threaten water resources. This type of activity should be allowed if 
reclamation leaves previously polluted streams cleaner than they were 
before. But we see no reason for any company to receive extra liability 
protection for re-mining.
    We do not believe there is an intention to allow companies to carry 
out re-mining projects under this bill, but it is possible, perhaps 
even likely, that changes to the existing language of this discussion 
draft will occur. I urge the Committee to ensure no loopholes are 
created that would allow any company to abuse the liability waivers 
granted under this act in order to obtain new surface mining permits at 
an AML site.
                   defining a ``community reclaimer''
    While one solution to the issue of coal companies abusing the bill 
is to simply prohibit any such company from qualifying as a ``Community 
Reclaimer,'' I understand that the authors would like to give companies 
that opportunity. Given the experience and resources mining companies 
bring to the table, that decision is not unreasonable. Included in the 
bill's definition of a ``Community Reclaimer,'' however, are sensible 
restrictions that would prohibit companies with unfulfilled reclamation 
obligations or outstanding violations from qualifying. We agree with 
that decision, but defining such persons or companies can be quite 
difficult.
    In many instances, a parent company may own as many as a several 
dozen subsidiary mining companies. These corporate structures often 
shield each individual company, as well as the parent company, from 
protective measures within SMCRA intended to prevent widespread 
pollution issues. According to the Office of Surface Mining Reclamation 
and Enforcement, ``section 510(c) of SMCRA prohibits issuance of a new 
permit to any applicant who owns or controls mining operations having 
unabated or uncorrected violations anywhere in the United States until 
those violations are abated or corrected or are in the process of being 
abated or corrected to the satisfaction of the agency with jurisdiction 
over the violation.'' State agencies routinely issue permits to 
subsidiary companies even when other subsidiaries have outstanding 
violations.
    For example, citizens living around Coal River Mountain in West 
Virginia recently objected to the issuance of several new mountaintop 
removal permits in their area. Republic Energy, Inc., a subsidiary of 
Alpha Natural Resources, applied for the permits. Republic's newest 
permit for the Long Ridge Mine was issued over citizens' objection, 
even when Alex Energy, another Alpha subsidiary, had outstanding 
reclamation schedule violations at the time. Alpha Natural Resources 
owns at least 22 coal companies currently registered with the West 
Virginia Secretary of State. These companies all list the same manager, 
organizer, and office address. Alpha Natural Resources and its 
subsidiary have had numerous recent issues in West Virginia, including 
ongoing violations, coal slurry spills, and allegations of fraud, yet 
the subsidiaries are routinely treated as individual companies and 
granted leniency when it comes to permitting decisions and enforcement 
actions.
    Due to the prevalence of permitting and enforcement issues among 
subsidiary companies, the language defining ``Community Reclaimer'' 
should be strengthened. Currently, the definition includes, ``Is not a 
past or current owner or operator of any site with ongoing reclamation 
obligations or subject to violations listed pursuant to section 510(c) 
of this Act (30 U.S.C. 1260(c)).'' We suggest updating the definition 
to read ``Is not a past or current owner or operator, and does not 
share a common owner or parent company with a past or current owner or 
operator, of any site with ongoing reclamation obligations or subject 
to violations listed pursuant to section 510(c) of this Act (30 U.S.C. 
1260(c)).''
                     communications with the public
    Last, there is a provision in this act that requires a notice be 
provided to ``adjacent and downstream landowners and the public before 
the project is initiated.'' That is important, but should go further in 
providing each of the listed entities the opportunity to express 
concerns and have those concerns addressed by either the state or the 
Community Reclaimer. After all, a notice in the mail can raise a lot 
more questions than it answers.
    Regardless of how beneficial a project might be, neighbors may 
raise legitimate issues. They deserve an accessible and clear method of 
sharing their thoughts with the Community Reclaimer and the state and 
to have their concerns addressed in a timely manner.
    To be perfectly clear, we are not advocating for the creation of a 
bureaucratic barrier that could serve to prevent good projects from 
moving forward, nor do we want to allow any person from stopping 
projects without cause. Instead, we think the bill could be improved by 
making a clear requirement that the public should be given a reasonable 
opportunity to express concerns and have those concerns addressed.
    In doing so, it should also be clarified in the bill which entity 
is responsible for communication with the public from a project's 
inception to completion: the state or the Community Reclaimer. It 
appears that the responsibility falls to the Community Reclaimer, but 
clarification would be helpful.
                               conclusion
    As the Community Reclaimer Protection Act moves forward, we hope 
you'll consider our thoughts and ensure that re-mining is not 
considered eligible for liability waivers and that local communities 
are given an opportunity to voice concerns and have them addressed. If 
the Committee is able to sufficiently address those issues while 
providing non-governmental entities the liability coverage they need to 
help clean up Appalachian streams, then we would urge Congress to pass 
this bill quickly.

                                 ______
                                 

    Dr. Gosar. I thank the gentleman.
    The Chair now recognizes Mr. Stefanko for his testimony. 
Thank you.

STATEMENT OF JOHN STEFANKO, DEPUTY SECRETARY FOR THE OFFICE OF 
 ACTIVE AND ABANDONED MINE OPERATIONS, PENNSYLVANIA DEPARTMENT 
   OF ENVIRONMENTAL PROTECTION, HARRISBURG, PENNSYLVANIA, ON 
BEHALF OF THE INTERSTATE MINING COMPACT COMMISSION AND NATIONAL 
          ASSOCIATION OF ABANDONED MINE LAND PROGRAMS

    Mr. Stefanko. Thank you, Mr. Chairman and members of the 
Committee. I am appearing here today on behalf of the 
Commonwealth of Pennsylvania, the Interstate Mining Compact 
Commission, and the National Association of Abandoned Mine Land 
Programs. We appreciate the opportunity to share our 
perspective on the status of the abandoned mine drainage 
treatment efforts, and to express our support for this much-
needed amendment to SMCRA.
    Acid mine drainage, casually known as AMD, is a massive and 
pervasive problem. In Pennsylvania alone, over 5,600 miles of 
streams are impacted by AMD pollution from abandoned coal 
mines. The impacts to the health, environment, and economic 
livelihoods of our state's communities are felt every day, and 
the story is similar for historic coal communities throughout 
the country.
    The AML program, under SMCRA, gives states the resources 
they need to counteract coal AML problems within their borders, 
including impacts to water resources. In an era of increasing 
economic hardship for coal field communities, this work has 
become more important than ever. But due to the problematic 
overlap in Federal law applicable to treatment of these sites, 
the AML programs are not being allowed to fully realize their 
mission.
    Coal AML sites are generally handled exclusively through 
SMCRA, but in cases where the Clean Water Act potentially 
applies, the state's responsibilities are generally unclear. 
And where they are clear, they are typically not practical, and 
this is having a chilling effect on the state's efforts to 
address AMD.
    The Clean Water Act, as a cornerstone of Federal 
environmental law, is intentionally very strict in regulating 
impacts to our Nation's water resources. But as an unintended 
consequence of the strict design, its requirements simply do 
not comport well with the realities of treating AMD from 
abandoned mines. These sites are, by definition, already 
polluted and, therefore, do not meet the Clean Water Act 
standards at the time treatment begins.
    Furthermore, the nature of AMD pollution is such that, in 
many cases, no amount of remediation work could achieve these 
standards fully in any case. Even so, joint and several 
liability under the Clean Water Act means any party who affects 
such a site becomes permanently responsible for treating the 
discharge to meet full standards.
    As a result, the states and their partners are exposed to 
significant, undeserved potential liability in the due course 
of their work, even where the project is authorized under 
SMCRA, conducted properly, and improving water quality.
    The key to resolving these issues is bringing clarity and 
practicality to the responsibilities borne by the AML programs 
as they conduct AMD projects. The bill before the Committee 
today--or discussion bill--would accomplish that goal by 
setting an established process for states to work with the 
relevant government authorities to outline a clear, achievable 
strategy for AMD water treatment under SMCRA. This will result 
in more prevalent and effective AMD water treatment work by the 
state AML programs, and more effective overall implementation 
of Federal law with respect to these sites.
    As much as these obstacles to the AMD treatment work can 
strain and complicate state efforts, circumstances are even 
worse for the state's potential partners. These groups tend to 
have limited sources of funding, often in the form of discreet 
grants, and are, therefore, all the more vulnerable to the 
risks of undeserved liability.
    Pennsylvania recognized long ago that with the availability 
of these voluntary efforts, many of the state's abandoned mine 
discharges would be eliminated or improved at little or no cost 
to the Pennsylvania taxpayer, if only the potential for 
undeserved liability could be addressed.
    To that end, Pennsylvania enacted its Environmental Good 
Samaritan Act of 1999, under which 79 AMD treatment projects 
have been undertaken in various partnerships among the 
Commonwealth. While these projects often do not strictly adhere 
to Clean Water standards, they nevertheless significantly 
improve water quality in receiving streams, the aggregate 
effect of which produces drastic improvements in overall health 
of the greater watershed at a comparatively low cost.
    Pennsylvania's program has enabled these projects to occur 
without risk of undue liability under state law, but great 
risks still remain for the Commonwealth and their partners 
under Federal law, and still more projects could be pursued if 
not for that fact.
    The bill will allow the state-level program in Pennsylvania 
to achieve its full potential, and will provide the mechanism 
for other states to follow the successful model, and to enhance 
our own AMD treatment. The specter of undeserved liability 
under current circumstances constrains the state's efforts 
under SMCRA, and deters motivated, well-intentioned volunteers 
from assisting in that work, which serves only to prolong the 
environmental, social, and economic harm these sites represent.
    With this bill, Congress has the opportunity to restore 
SMCRA's role in AMD water treatment, enable the state AML 
programs and their partners to make meaningful progress in 
restoring our watersheds, and, in doing so, put an important 
piece of coal country's future into place. Thank you.

    [The prepared statement of Mr. Stefanko follows:]
   Prepared Statement of John Stefanko, Deputy Secretary, Active and 
  Abandoned Mine Operations, Pennsylvania Department of Environmental 
    Protection, on behalf of the Commonwealth of Pennsylvania, the 
 Interstate Mining Compact Commission, and the National Association of 
                      Abandoned Mine Land Programs
                              introduction
    Good Morning Mr. Chairman and members of the Committee. My name is 
John Stefanko and I serve as the Deputy Secretary for Active and 
Abandoned Mining Operations within the Pennsylvania Department of 
Environmental Protection. I am appearing today on behalf of the 
Interstate Mining Compact Commission and the National Association of 
Abandoned Mine Land Programs, two multi-state governmental 
organizations that represent the natural resource and environmental 
protection interests of their 30 member states (and in the case of 
NAAMLP, three Indian tribes).
    We appreciate the opportunity to share our perspectives on the 
current status of abandoned mine drainage water treatment efforts and 
to express our support for this much-needed amendment to the Surface 
Mining Control and Reclamation Act (SMCRA).
    In enacting the Abandoned Mine Lands (AML) Program under SMCRA, 
Congress sought to address a very difficult problem. Legacy coal mining 
sites have enduring impacts on public health and the environment; but 
because the mining occurred so long ago and the coal companies that 
conducted that mining are long since defunct, no known party exists 
with reclamation obligations for these sites under any state or Federal 
law. Put simply: abandoned mines are everyone's problem but no one's 
responsibility.
    SMCRA provides AML-impacted states the resources and authority they 
need to counteract the massive and costly AML problems within their 
borders. The state AML programs have made significant progress since 
the Act's passage, but much remains to be done, in particular regarding 
waters impacted by abandoned mine drainage (AMD). In Pennsylvania 
alone, there are an estimated 5,600 miles of streams impaired by 
AMD.\1\
---------------------------------------------------------------------------
    \1\ 2016 Pennsylvania Integrated Water Quality Monitoring and 
Assessment Report.
---------------------------------------------------------------------------
    Congress clearly intended the mission of the SMCRA AML program to 
encompass mine drainage-impacted water treatment work,\2\ but due to 
problematic overlap in Federal Environmental Law applicable to such 
water pollution, the AML programs are not being allowed to fully 
realize that mission. As a result of the significant, undeserved 
liability faced by states and their AML partners under Federal Law, 
even where an AMD project would improve water quality, many potential 
projects are left sitting on the shelf, and many of the states' 
potential partners are left sitting on the sideline. With the bill 
before the Committee today, this paralyzing ambiguity can be clarified 
and more effective overall implementation of Federal Environmental Law 
can be achieved.
---------------------------------------------------------------------------
    \2\ Surface Mining Control and Reclamation Act of 1977, Section 
101(h).
---------------------------------------------------------------------------
    In an era of increasing economic hardship for coalfield communities 
throughout the country, the state AML programs' work has become more 
important than ever. As the RECLAIM Act (H.R. 1731) before the 
Committee last month indicates, the AML programs are not only steadfast 
defenders of our coalfield communities' health, safety, and 
environment, but are also key contributors to economic revitalization 
efforts.
    The water treatment work conducted by the state AML programs and 
their partners is particularly vital to economic revitalization. Clean, 
unpolluted water supplies and recreational waterways are foundational 
pieces of the new economic future for coal country that Congress seeks 
to build. Meanwhile, AML impacts like water pollution only worsen over 
time, and the resources available or that will become available to the 
state AML programs under SMCRA for their work, and in particular for 
water treatment, are significantly less than what is needed. Allowing 
the state AML programs to fulfill SMCRA's role in treating water 
impacted by abandoned mines and bringing the resources and passion 
available from the states' AML partners to bear on this massive and 
intractable problem is critical for the future of coal country. With 
the bill before the Committee today, Congress has the opportunity to 
achieve those ends and put an important piece of that future into 
place.
              amd water treatment and the clean water act
    The environmental decade of the 1970s brought sweeping changes to 
the way that water quality is regulated in the United States. 
Foundational environmental laws like SMCRA and the Federal Water 
Pollution Control Act (Clean Water Act) helped to clean up our 
waterways and safeguard the health of our citizens and environment, and 
the country is undoubtedly a better place as a result. It is therefore 
a great irony that these laws, which were meant to facilitate water 
quality, now stand in the way of water quality improvements at AMD 
sites.
    The Clean Water Act, as a cornerstone of Federal Environmental Law, 
is intentionally very strict in the restrictions placed on and the 
penalties potentially assessed against those who impact our Nation's 
water resources. As an unintended consequence of that strict design, 
and in particular its purposefully stringent and inflexible standards 
for water treatment, Clean Water Act requirements do not comport well 
with the realities of AMD treatment.

    With regard to this issue, John Whitaker, a White House staffer 
during the Nixon administration who played an integral role in the 
passage of the Clean Water Act, recalls the following:

        ``When I and other White House staffers responsible for 
        environmental initiatives during the Nixon administration 
        recommended to the President new water pollution control 
        strategies for congressional consideration, our focus was 
        primarily on sewage treatment and industrial effluent, not the 
        acid mine drainage problems from abandoned mines. We should 
        have had more foresight . . . We did not envision at the time 
        that the day would come when the zero discharge provision would 
        prevent Good Samaritans from cleaning up acid mine drainage . . 
        .'' \3\
---------------------------------------------------------------------------
    \3\ ``Cleaning Up Abandoned Hardrock Mines In The West: Prospecting 
for a Better Future''--Limerick, Ryan, Brown, and Comp, Center for the 
American West.

    This dilemma has been confirmed by the Environmental Protection 
Agency on many occasions, and is summarized well by the following quote 
---------------------------------------------------------------------------
from an EPA Administrator's testimony before Congress in 2006:

        ``Under the CWA, a party may be obligated to obtain a discharge 
        permit which requires compliance with water quality standards 
        in streams that are already in violation of these standards . . 
        . Yet, in many cases, the impacted water bodies may never fully 
        meet water quality standards, regardless of how much cleanup or 
        remediation is done. By holding Good Samaritans accountable to 
        the same cleanup standards as polluters or requiring strict 
        compliance with the highest water quality standards, we have 
        created a strong disincentive to voluntary cleanups. 
        Unfortunately, this has resulted in the perfect being the enemy 
        of the good.'' \4\
---------------------------------------------------------------------------
    \4\ Benjamin H. Grumbles, Assistant Administrator for Water, U.S. 
Environmental Protection Agency, Testimony before the Subcommittee on 
Water Resources and Environment, Committee on Transportation and 
Infrastructure, U.S. House of Representatives, March 30, 2006, pp. 2-3.

    The crux of the problem is that the Federal statutory paradigm for 
treating AMD-impacted water is not well-suited to the unique 
characteristics of these sites. The fundamental issue with AMD 
treatment is that impacted waterways are by definition already 
impaired, and in the case of abandoned mines, the originators of the 
pollution have long since gone out of business. Even so, due to joint 
and several liability under the Clean Water Act, any party who re-
affects an AMD-impacted site risks being held permanently responsible 
for fully eliminating the existing discharge, even where the pollution 
is the result of legacy mining, the project is significantly improving 
water quality, the party in question has no connection to the 
pollution, and no recklessness or negligence is exhibited.
    The EPA has acknowledged and attempted to mediate the conflict 
between AMD treatment and the Clean Water Act in the past, but the 
Agency's efforts have not meaningfully facilitated progress. The EPA's 
guidance memoranda of 2007 \5\ and 2012 \6\ regarding ``Good 
Samaritan'' involvement in such projects, and the ``comfort letters'' 
issued by the Agency pursuant to that approach, have, for reasons which 
will be discussed further below, unfortunately led to very few 
additional projects being undertaken.
---------------------------------------------------------------------------
    \5\ ``Interim Guiding Principles for Good Samaritan Projects at 
Orphan Mine Sites and Transmittal of CERCLA Administrative Tools for 
Good Samaritans,'' June 6, 2007.
    \6\ Clean Water Act Sec. 402 National Pollutant Discharge 
Elimination System (NPDES) Permit requirements for ``Good Samaritans'' 
at Orphan Mine Sites, Dec. 12, 2012.
---------------------------------------------------------------------------
    The obstacles posed by the Clean Water Act to the treatment of AMD-
impacted water have significantly slowed progress with such projects 
throughout the country and efforts to rectify the issue have been 
underway for over 20 years. While the need for resolution of this issue 
has been widely agreed upon for some time, the specifics of the ideal 
solution have long been debated--and it is clear that debate is 
stalling water treatment work that our coalfield communities 
desperately need.
    While the issue is typically discussed in the context of hardrock 
AML (mainly due to the absence of a dedicated national hardrock AML 
program, which accentuates the need to facilitate those efforts) 
current circumstances also strongly disincentivize AMD treatment at 
coal AML sites, even where conducted under SMCRA. IMCC and NAAMLP 
strongly support efforts to facilitate much-needed hardrock AML work 
through Good Samaritan legislation, as well as the enactment of a 
national hardrock AML program akin to the coal AML Program under SMCRA, 
and we intend to continue our work with Congress and affected 
stakeholders to support the development of legislation to those ends. 
In the meantime, the bill before the Committee today presents a 
comparatively simple path to making meaningful progress with a 
significant portion of the country's AMD-impacted water resources 
through the existing coal AML Program.
         obstacles to amd water treatment under smcra title iv
    Under the SMCRA AML Program, Congress has already established a 
system to contend with water pollution resulting from AMD at abandoned 
coal mines, which was clearly intended to become the primary mechanism 
by which these sites are handled under Federal law.
    As defined by SMCRA Title IV, lands and waters eligible for state 
AML projects are confined to those for which ``no reclamation 
obligation exists under state or other Federal Laws,'' which is 
essentially to say that no party with responsibility for the pollution 
is known to exist. Essentially, if these sites were subject to existing 
Clean Water Act, CERCLA, or other Federal liability, they would not be 
eligible under SMCRA Title IV in the first place, and thus it is 
generally understood that other Federal laws potentially relevant to 
abandoned AMD pollution are not necessary for AML sites listed and 
treated under the auspices of SMCRA.\7\
---------------------------------------------------------------------------
    \7\ House Report 101-24, to accompany the Abandoned Mine 
Reclamation Act of 1989, pg. 37.
---------------------------------------------------------------------------
    SMCRA eligible AML sites can involve discharges of AMD, but in the 
absence of any liable party with respect to the site, there are 
generally not the means available to treat the site under other Federal 
environmental programs. Accordingly, the status quo is that SMCRA Title 
IV has served as the primary mechanism to treat AMD resulting from 
eligible coal AML sites. With SMCRA being specifically aimed at this 
sub-group of uniquely situated, abandoned discharges, and Federal and 
state efforts under CERCLA and the Clean Water Act being generally 
targeted at, and often overwhelmed with, other cleanup activities, this 
arrangement is reasonable and has worked well.
    While the above generally holds true for coal AML work, the Clean 
Water Act's relationship with AML work has become a special case. 
Despite the fact that Title IV eligible sites are not subject to 
existing Clean Water Act liability and that the handling of Title IV 
eligible sites with AMD-impacted water are generally deferred to the 
SMCRA AML programs, the act of constructing, operating, or otherwise 
affecting a mine drainage treatment system or other point-source 
discharge carries the risk of exposure to liability with respect to the 
discharge under the Clean Water Act, as well as responsibility to 
comply with Clean Water Act Sec. 402 and obtain an National Pollutant 
Discharge Elimination System (NPDES) permit. For the reasons explained 
above, this risk has proven very problematic.
    SMCRA Title IV Section 405(l) is intended to allow states with 
approved AML programs to proceed with their efforts unimpeded by 
unnecessary liability under Federal Law--but this section only applies 
with respect to potential liability under such laws, as opposed to 
compliance with those laws.\8\ While that distinction is generally 
immaterial to the states' AML work vis-a-vis other relevant Federal 
Law, since as explained above, there is generally no cause for such 
responsibility at Title IV eligible sites, Section 413(d) of SMCRA 
specifically requires that treatment systems constructed and operated 
by the states under SMCRA fully comply with the Clean Water Act. AMD is 
generally understood to be defined as a non-point source and would 
therefore not generally be subject to NPDES requirements even given the 
requirement in 413(d), but recent court decisions have created a 
different expectation.
---------------------------------------------------------------------------
    \8\ Abandoned Mine Land Reclamation Program; Limited Liability for 
Noncoal Reclamation by Certified States and Indian Tribes, 80 Fed. Re. 
24 (February 5, 2015).
---------------------------------------------------------------------------
    Under current circumstances, an AMD treatment system may be 
considered to ``convey'' a polluted water source and therefore in fact 
to be a point-source discharge, even where the system is actually 
reducing pollution loading.\9\ The courts have also created an 
expectation that states and volunteer groups affecting an existing 
source of water pollution may be held as ``operators'' under the Clean 
Water Act and compelled to comply with full requirements of and 
liability associated with an NPDES discharge,\10\<SUP>,}</SUP>\11\ even 
where those requirements are clearly unreasonable and the liability 
clearly undeserved with respect to the parties in question. These 
developments have exacerbated the concern surrounding the potential for 
untenable consequences for well-intentioned and well-performed cleanup 
efforts at AMD sites.
---------------------------------------------------------------------------
    \9\ Environmental Defense Fund, Inc. v. East Bay Municipal Utility 
District.
    \10\ Pursuant to the Fourth Circuit Court of Appeals decision in 
West Virginia Highlands Conservancy v. Huffman to designate water 
treatment facilities as point-source discharges, West Virginia must now 
obtain CWA permits for bond forfeiture sites. There have been concerns 
that this ruling could be extended to AML projects being undertaken by 
the states and tribes under SMCRA.
    \11\ It is important to note that AML reclamation is handled 
separately and distinctly from bond forfeiture sites, and that these 
sites, and any companies experiencing bond forfeiture, would not be 
eligible for participation under the bill before the Committee today.
---------------------------------------------------------------------------
    At the center of this concern is the simple fact that, as noted 
above, NPDES permits are not well-suited for treating AMD-impacted 
water. In many instances, strict compliance with water quality 
standards imposed under Section 402 of the CWA is not logistically 
possible or technically practical. Even where achieving compliance is 
possible, the diminishing return on funding needed to achieve that 
standard renders the pursuit uneconomical and imprudent given limited 
resources and the prevalence of other critical AMD water treatment 
priorities. These realities of AMD treatment have led many state AML 
programs to adopt an approach that attempts to maximize the number of 
discharges that receive treatment to the highest standard practicable, 
in particular such that they support biological and other functions of 
the water resource. While these projects often do not strictly adhere 
to NPDES water quality based effluent requirements, they nevertheless 
significantly improve water quality in the receiving streams, the 
aggregate effect of which produces drastic improvements in overall 
health of the greater watershed at a comparatively low cost.
    The network of pollution-reducing active and passive water 
treatment systems employed by many state AML programs under this 
approach has led to great strides in restoring AMD-impacted watersheds, 
as well the community health and livelihoods which depend on those 
watersheds; but as a result of these systems' inability to comply fully 
with the Clean Water Act as described above, the state AML programs 
risk exposure to daunting undeserved liability (and therefore risk to 
their past and future progress with other AMD priorities) whenever they 
undertake such projects. These circumstances continue to discourage if 
not totally preclude many states' (and even more so their potential AML 
partners') ability to treat water under their approved SMCRA AML 
programs; and even in states that have been able to proceed with some 
amount of water treatment work, these circumstances have been a 
severely complicating factor.
    To summarize, Title IV-eligible coal AML sites are generally 
handled exclusively through the auspices of SMCRA, but in cases where 
the Clean Water Act does or seems potentially to apply based on certain 
relevant legal decisions, the states' responsibilities under Section 
402 of the Clean Water Act are generally unclear, and where they are 
clear, are typically impracticable.
    facilitating amd treatment work under the community reclamation 
                            partnerships act
    As noted above, the EPA has attempted to resolve this issue 
administratively through Guidance memoranda, which essentially outline 
conditions under which the Agency will waive its enforcement authority 
under the Clean Water Act (i.e. forego applying undeserved penalties 
and unreasonable compliance responsibilities) for mine drainage 
treatment projects conducted under certain conditions. In similar 
fashion, many state AML programs have reached understandings \12\ with 
the EPA and/or their state NPDES authority counterparts to outline 
practicable levels of compliance with NPDES for their respective AML 
programs based on the main goal: improving water quality.
---------------------------------------------------------------------------
    \12\ For example, under such agreements, the states may not be 
expected to achieve full water quality compliance where infeasible, may 
not be required to sample for the full range of constituents generally 
applicable, and may have their responsibility otherwise proscribed 
based on conditions at a given site and the state's staffing and 
financial capability--but for reasons described below, these agreements 
provide limited assurance to the AML programs.
---------------------------------------------------------------------------
    The primary remaining obstacle is that, despite assurances and 
understandings described above, these projects are still potentially 
subject to citizen suit liability under the Clean Water Act. Due to the 
requirement in 413(d), and the developments in relevant legal 
precedence described above, the states' efforts may be deemed non-
compliant by the courts where they do not fulfill NPDES requirements. 
This means that even where these projects are conducted under SMCRA, 
condoned by the EPA and/or state NPDES authority, and are improving 
water quality by reducing pollution loading, a state could still be 
assessed liability and compelled to take immediately required, 
expensive, tax-funded action to return a given site to an impracticable 
condition, which is ultimately what the states must avoid.
    The key to resolving this issue is bringing clarity and 
practicality to any Clean Water Act compliance responsibilities borne 
by the states as they conduct AMD water treatment under SMCRA. This 
bill would accomplish that goal by setting an established, thorough 
process by which state AML programs can work with their NPDES authority 
counterparts (contingent on EPA approval) to outline a clear, 
achievable, statutorily-sanctioned strategy for their water treatment 
work. This approach will ensure that the purposes of the Clean Water 
Act are upheld while providing necessary assurance that such efforts 
will be considered compliant with the Clean Water Act in the future, 
and can be pursued free from concerns with liability stemming from the 
unreasonable, unhelpful aspects of the Clean Water Act's application to 
AMD treatment work.
    The amendment proposed by the bill represents a genuine attempt to 
find the appropriate middle-ground between SMCRA and the Clean Water 
Act for AMD projects, and ensure that the purposes of the Clean Water 
Act are fulfilled through the state AML programs' efforts. These 
improvements will result in more prevalent and effective AMD water 
treatment work by the state AML programs, and more effective overall 
implementation of Federal Law with respect to these sites. Without such 
improvements, the ambiguity remaining in (and certain other prohibitive 
aspects of) the Law's application to abandoned AMD pollution will 
continue to constrain and delay the states' progress under SMCRA.
       removing obstacles to partnerships for amd treatment work
    The obstacles to AMD treatment work described above constrain and 
complicate the states' efforts significantly, but for the states' 
would-be partners in those efforts, the impediment is much worse. Now 
more than ever, the states and their AML-impacted communities could use 
the assistance of their passionate and capable Community Reclaimer 
partners, but current circumstances unfortunately heavily 
disincentivize that possibility.
    Much like the state AML programs themselves, their partners face 
the potential for devastating undeserved liability in the due course of 
their AMD treatment work, even where the group in question has no 
connection to the site and the project is significantly improving water 
quality. What's more, the states' partners tend to have limited sources 
of funding, often in the form of discrete grants, and are therefore all 
the more vulnerable to the risks of undeserved liability and infeasible 
compliance responsibility. If these groups are not completely certain 
of their responsibilities and potential liability as a result of 
conducting, participating in, or funding a project, and that those 
responsibilities will be practicable, they will have little choice but 
to forego those activities or risk lethal impacts to the financial 
health of their organization.
    Pennsylvania recognized long ago that with the availability of 
these volunteer efforts and advances made in our understanding of mine 
drainage, many of the state's abandoned coal mine AMD discharges could 
be eliminated or improved at little or no cost to the Pennsylvania tax-
payer if only the potential for undeserved liability could be 
addressed. To that end, Pennsylvania enacted its Environmental Good 
Samaritan Act of 1999,\13\ under which 79 AMD treatment projects have 
been undertaken in various partnerships between the Commonwealth, local 
governments and municipal authorities, individual community supporters, 
corporations, watershed associations, and conservancies. These projects 
are spread among 20 counties and 53 distinct groups, and the majority 
of these projects are active today. State-level liability protections 
have enabled these projects to occur without risk of undue liability 
under state law, but risks remain for the Commonwealth and their 
partners under Federal law, and still more projects could have been 
pursued if not for the remaining specter of liability.
---------------------------------------------------------------------------
    \13\ Title 27 Pennsylvania Consolidated Statutes Annotated Sections 
8101-8114.
---------------------------------------------------------------------------
    Much like the proposal in the bill before the Committee today, 
projects eligible under the EGSA must abate water pollution resulting 
from abandoned mine lands and eligible participants must meet certain 
conditions demonstrating that they and the project are worthy of 
liability protections offered by the program. A key component of the 
program's success is its reliance on the state AML program's long-
standing expertise in their field. Under the EGSA, all activities 
related to a given project proceed under the guidance and approval of 
the Pennsylvania Department of Environmental Protection (PADEP), which 
utilizes its expertise and long resume of successful water treatment 
projects to appropriately adjust requirements to match the scale and 
complexity of the proposed project and to ensure that only well-
conceived projects move forward. The program proposed by the bill 
before the Committee today reflects the structure of the EGSA, and 
should successfully integrate its advantages.
    Pennsylvania's experience in the almost 20 years since the passage 
of the EGSA demonstrates that there are countless opportunities for 
Community Reclaimers to assist the AML programs, especially in the 
treatment of AMD-impacted water. The Commonwealth and its partners' 
work under the EGSA provides a proof of concept for the beneficial, 
responsible participation of such groups in the AML programs' work as 
well as for the bill before the Committee today.
    facilitating amd treatment work under the community reclamation 
                            partnerships act
    This bill would build on the proven program in SMCRA, take the 
lessons of the successful program in Pennsylvania, and responsibly 
confer with relevant authorities, to establish a distinct process for 
unnecessarily marginalized groups to work with the state AML programs 
as partners.
    The critical components of this approach are the states' assumption 
of ultimate responsibility for the project under Federal law, the 
strong definition of Community Reclaimer, and the requirement that 
these projects be conducted pursuant to a state's approved Reclamation 
Plan, including where applicable the jointly developed strategy for AMD 
treatment as developed under Section 405(m) of the proposed amendment.
    The states' assumption of responsibility under Section (n)(1)(v) of 
the bill will ensure that ultimate care of affected sites will be 
accounted for in accordance with the State Reclamation Plan. It will 
also allow the states to provide the necessary assurances to 
prospective partners that they will not be assessed Federal liability 
outside the terms and conditions of the State Reclamation Plan and the 
state's agreement with the partner as described in (n)(1)(v). It is 
interesting to note that AML contractors utilized under the 
conventional AML program are similar to volunteer groups in that they 
could theoretically be subject to similar liability by affecting a 
polluted site, becoming considered ``operators'' under Federal 
environmental law, and thus being exposed to joint and several 
liability. In some cases, states mitigate liability risk to prospective 
contractors by formally agreeing as a condition of the contract to 
assume potential liability as a result of remaining pollution or 
certain accidental releases (basically any instance in which the 
contractor would be exposed to undue liability, meaning other than 
liability that is a result of their own recklessness or negligence). 
The program proposed by the bill before the Committee today would 
emulate this not-unprecedented solution represented by the assumption 
of ultimate liability by the state, thereby providing volunteer groups 
the assurance they need to securely proceed with their efforts, while 
also ensuring that, at the end of the day, the site will be taken care 
of appropriately.
    The proper care of these sites will be further ensured by the fact 
that these projects will be conducted in compliance with the States 
Reclamation Plan and under the guidance of the state AML program, and, 
where applicable, will support the attainment of water improvements 
under the terms and conditions agreed to by the state AML program and 
other relevant agencies and approved by the EPA as required by Section 
405(m) of the proposed amendment.
    Through the definition of Community Reclaimer provided by the bill, 
eligible groups will be confined to those who have no connection to the 
pollution at the site, genuinely seek to improve the environment, have 
a strong history of environmental compliance, and are otherwise worthy 
of participation in this program. Between the fundamental requirement 
that no Title IV AML site may be subject to existing liability, the 
strict bar set for participation in the program by the Community 
Reclaimer definition, the appropriate exceptions for instances of 
reckless and gross negligence, and the fact that the Office of Surface 
Mining Reclamation and Enforcement will review and approve each project 
pursued under the program, this bill is clearly designed to ensure that 
only parties deserving of participation in the program are allowed to 
do so. For this reason and those described above, the Commonwealth of 
Pennsylvania, IMCC, and NAAMLP believe that this bill provides a 
responsible approach to achieving its much-needed ends.
    Pennsylvania's citizen, watershed, and environmental groups have 
long been working to address the impacts of legacy mining under the 
state-level protections of the Commonwealth's model EGSA, but even this 
particularly well-established community of potential Community 
Reclaimers has the potential to make an even more impactful 
contribution given the chance through the bill before the Committee 
today. For states who, in the absence of a program similar to the EGSA, 
do not benefit from such fruitful partnerships with their potential 
Community Reclaimers, this bill will ease the inadvertent suppression 
of these groups' assistance and help those partnerships to grow.
    The bottom-line is that if we are to eliminate the lingering 
effects of abandoned coal mines, and in particular the impairment of 
our communities' water resources, every available tool and every source 
of help is needed. The Commonwealth of Pennsylvania, IMCC, and NAAMLP 
believe this bill is a responsible solution to providing the long-
awaited assurances potential Community Reclaimers need to enhance their 
work and give the state AML programs the assistance they need to 
fulfill the potential of the SMCRA AML Program.
                               conclusion
    The SMCRA AML Program has made great progress with the reclamation 
of abandoned coal mines, but the cost remaining to complete reclamation 
in every state far outweighs what has been or will be available from 
the AML fee. SMCRA Title IV justifiably prioritizes immediate dangers 
from AML sites to public health and safety, but the investment of 
limited grant funding in this work makes it difficult for the states to 
maintain adequate, consistent funding for water treatment work. As coal 
production declines, AML grant funding declines in turn, and with 
expiration of the AML fee pending in 2021, the future of AML grant 
funding under SMCRA is seemingly limited, or at best unclear. 
Meanwhile, the current inventory of known AML problems sits at over $10 
billion--which would be significantly higher were the full long-term 
costs of AMD water treatment accurately reflected in the inventory.
    While the future of the AML program remains unclear, with each 
passing year in which the resolution of these obstacles to AMD 
treatment is delayed, this fact at least has become increasingly 
difficult to ignore: the remaining inventory of abandoned mine lands is 
so large and the existing governmental resources so comparatively 
limited, that without a clearer, more practical process for treating 
AMD under SMCRA, and without the robust assistance of the states' AML 
partners, it will be impossible to complete the SMCRA AML programs' 
mission of restoring our country's AML-impacted lands and waters.
    The specter of undeserved liability under current circumstances 
constrains the states' efforts under SMCRA and deters motivated, well-
intentioned volunteers from assisting in that work, which serves only 
to prolong the environmental, social, and economic harm these sites 
represent.
    It is time for Congress to restore SMCRA's role in AMD water 
treatment and enable the state AML programs and their partners to make 
meaningful progress to that end.

                                 ______
                                 

 Questions Submitted for the Record by Rep. Gosar to Mr. John Stefanko
    Question 1. How does Pennsylvania handle public involvement in Good 
Samaritan projects? For example, does the state provide public notice 
for each project or provide opportunities for public comment?

    1a.  If public notice is required, who provides that notice, the 
state or the Good Samaritan?

    Answer. Under the Pennsylvania (PA) Good Samaritan program, the 
Pennsylvania Department of Environmental Protection (PADEP) is 
responsible for providing public notice of proposed projects. (The 
person or group proposing the project may also give public notice, but 
is not required to do so.) There are two acceptable methods of public 
notice. The first approach is to provide a 30-day comment period by 
certified mail to adjacent property owners and riparian landowners 
identified by the applicant. The second approach is to provide public 
notice of the proposed project in a newspaper of general circulation in 
the locality of the project. The newspaper advertisement must be 
published once-a-week for 4 consecutive weeks with a 30-day comment 
period after the last publication date. PADEP consults with the 
applicant when deciding on which method to use. Project participants 
and project landowners can be held liable if the project causes damage 
to adjacent landowners or downstream riparian landowners who did not 
receive the certified mail notice. It is therefore important that the 
project applicant fully assess the potential for off-site damage to 
determine how far downstream damage may occur. Alternatively, the 
newspaper notice is more expensive and it requires a longer review 
period; however, it provides immunity from liability for damage to all 
adjacent landowners and all downstream riparian landowners. It should 
be noted that some newspapers no longer print but only publish online. 
PA is currently evaluating potential changes to our public notice 
process to address this trend and ensure that public notices continue 
to meet the requirements of the Act while reaching the maximum intended 
audience.

    Any person having an interest that may be adversely affected by the 
proposed project has a right to file written objections with the DEP. 
Objections must be filed within 30 days after the receipt of the 
certified letter or the date of the last newspaper advertisement. PADEP 
provides a copy of all objections to the project applicant and 
considers the objections when approving or disapproving the project.

    Question 2. How does Pennsylvania handle instances of gross 
negligence with their Good Samaritan partners? Are the Good Samaritans 
considered liable in those cases?

    Answer. The PA Environmental Good Samaritan Act (Act) does not 
provide immunity in cases where injury or damage results from the 
landowner's or participant's acts or omissions that are determined to 
be reckless, grossly negligent or willful misconduct. The Act also does 
not provide immunity for unlawful activities by the landowner or 
participant.
    The Act does not give PADEP the authority to determine who does or 
does not receive protections from liability. That question must be 
resolved in civil court. If a lawsuit is brought against a landowner or 
project participant for injury or damage, the landowner or participant 
will have to demonstrate to the court that they qualify for the 
protections in the Act.

    Question 3. Do Good Samaritan partners often use subcontractors in 
executing projects?

    3a. How are the subcontractors selected?

    3b.  Are these subcontractors protected from liability under 
Pennsylvania law as well?

    Answer. Subcontractors are used by Good Samaritan partners in 
Pennsylvania. The subcontractors are chosen by the Good Samaritan 
partners. That selection process is not subject to the provisions of 
the Act.

    Under the Act, a person or organization that receives payment or 
consideration, or receives some other benefit through a contract for 
reclamation, treatment or abatement is not entitled to the Act's 
protections. Typically, this would exclude mine operators, contractors 
under Government-Financed Construction Contracts, PADEP Bureau of 
Abandoned Mine Reclamation contracts, and contracts with sureties and 
private contracts with landowners.

    Question 4. Does Pennsylvania currently allow mining companies to 
serve as Good Samaritans and conduct reclamation work?

    4a.  What requirements must a mining company meet in order to serve 
as a Good Samaritan in Pennsylvania?

    4b.  How do these companies prove their ``innocence'' with respect 
to abandoned mine lands? Are there any requirements regarding 
outstanding reclamation obligations or SMCRA violations? If so, please 
describe them and how companies demonstrate their eligibility.

    4c.  Are ``innocent'' companies that are somehow tied to other 
companies with SMCRA violations allowed to serve as Good Samaritans? 
For instance, if a company without any SMCRA violations is owned by a 
parent company with SMCRA violations, is the ``innocent'' company able 
to serve as a Good Samaritan?

    Answer. The PA Environmental Good Samaritan Act covers persons who 
voluntarily provide equipment, materials or services at no charge or at 
cost for reclamation and abatement work on eligible lands and water. A 
``person'' is defined as a natural person, partnership, association, 
association members, corporation, political subdivision of the 
Commonwealth, an agency, instrumentality or entity of Federal or state 
government or other legal entity recognized by law as the subject of 
rights and liabilities. Mine operators may quality as Good Samaritans. 
However, a mine operator who has an obligation under a consent order or 
any other legal responsibility for the reclamation or pollution 
abatement would not be eligible. Legal responsibility or liability of 
the mine operator would be shared with the operator's officers, 
principal shareholders, agents, partners, associates, parent 
corporation, contractors or subcontractors, or related parties. 
Additionally, mine operators with any outstanding violation of the 
mining statutes would be ineligible. Compliance status and potential 
legal responsibility is determined using current compliance and 
ownership/control database information.

                                 ______
                                 

    Dr. Gosar. I thank the panel for their testimony. Reminding 
the members of the Committee that Rule 3(d) imposes a 5-minute 
limit on questions, the Chairman will now recognize Members for 
any questions they may wish to ask the witnesses.
    I would like to recognize the gentleman who is the author 
of the current bill today, Mr. LaHood from Illinois.
    Mr. LaHood. Thank you, Mr. Chairman, I appreciate that very 
much. I want to thank the witnesses for your valuable testimony 
here today, and I am honored to be the author of this proposed 
legislation.
    And, Chris, I enjoyed looking at the map up on the TV 
monitor there. As I looked at central and west central 
Illinois, which includes much of my district, the volume of red 
dots up there--and this is not only an area that is in the 
Rocky Mountains or in the Appalachian area, it is applicable 
all across the country.
    As we look at this legislation, I do think about those 
areas of abandoned mines in my district, and the tourism, 
recreation, and fishing opportunities that we currently have in 
much of that area. But there are many blighted areas with 
abandoned mines that do not have that same ability.
    I have also interacted with a lot of private organizations 
that want to help, want to be involved, and want to be Good 
Samaritans. The Nature Conservancy has done a big project 
called Emiquon in my district along the Illinois River, which 
has created a vast area for recreation and tourism.
    As I look at this legislation and how we get it right here, 
there is a lot that is going to be focused on the mechanics and 
the process and procedure for the application. And how do we 
codify that the right way before we move forward? All of you 
have touched on that a little bit.
    I guess, Mr. Stefanko, I would start with you. In looking 
at the application process, and working with, obviously, the 
different secretaries on these reclamation projects, give us 
your thoughts on how we get this right, in terms of the 
application process.
    Mr. Stefanko. Pennsylvania, itself, already has an 
application in process by which, essentially, you do register 
to be eligible for the Good Samaritan Act in Pennsylvania.
    You have to show what organization you are, the project 
that you are going to do, that you have absolutely no 
connection to that particular discharge or are liable for it in 
no manner, in what way. You have to show that there is property 
owner access to the property, and that the property owner will 
allow access to actually do the treatment on the site itself.
    If you meet all these specific criterias for that 
particular project, then we consider you registered for the 
Good Samaritan liability. I think something on the Federal 
level very similar to that would work very well.
    Mr. LaHood. Chris, any further thoughts on that?
    Mr. Wood. No, I think that is exactly right. What we want 
to do is try to replicate what we have been able to do 
successfully in Pennsylvania around the rest of the country.
    And even in Pennsylvania I would say that, because of some 
judicial interpretations of the Clean Water Act, we are 
operating at some liability risk. It may not be as substantial 
in other states that don't have stand-alone state legislation, 
but this would provide security for all of this kind of work, 
all around the country, which is what is needed.
    Mr. LaHood. And Mr. Kay?
    Mr. Kay. Thank you. Yes, I think making sure that 
communities are involved in the discussion of this, I would 
want to make sure that we not only talk to the Community 
Reclaimers and the state, but also talk to some people who have 
lived near some of these sites, and give them a chance to 
address any issues they have had in the past that we might want 
to include in this process. But I think we can look at that for 
best practices from the state, which I hear only good things.
    Mr. LaHood. And Mr. Wood, in terms of what you have seen in 
Pennsylvania in terms of a success story, can you give us an 
idea of the amount of private-sector money that has flowed into 
these projects?
    Mr. Wood. I can't give you an exact amount. I can get back 
to you with that, though. But I will tell you that the return 
on investment is fairly significant. Going back 11 years ago, 
we looked at the West Branch of the Susquehanna and determined 
that for every Federal dollar going in $1.50 was being spent. 
That is really dated, that is 11 years old.
    Notably, given how you started your question earlier, we 
also determined that if we improved water quality in the West 
Branch to a substantial degree, we would be able to see at 
least $50 million in additional economic benefit coming to the 
region, just from having an improved fishery alone.
    Mr. LaHood. Mr. Stefanko, do you have any further thoughts 
on that, in terms of the amount of investment?
    Mr. Stefanko. I do. Basically, because of the fact that 
this provides another option for the states that have these AMD 
problems to get a lot of work done. We have limited funding to 
address these resources, so by allowing these entities to come 
in--whether it be industry, whether it be a local watershed 
group, who could potentially have access to other funding--it 
does allow us to enhance our programs and get a lot more work 
accomplished that we may not be able to do.
    Mr. LaHood. Thank you, Mr. Chairman.
    Dr. Gosar. I thank the gentleman. I now recognize the 
Ranking Member, Mr. Lowenthal, for his 5 minutes.
    Dr. Lowenthal. Thank you, Mr. Chair. I want to follow up on 
my introductory remarks. I would like to ask a question about 
Section 4, which is titled, ``Conforming Amendments,'' but 
seems to make major changes to the law. I am referring to 
Section B, in particular.
    Currently in Section 413(d) of the Surface Mining Control 
and Reclamation Act, or SMCRA, it reads, ``The Secretary or the 
state, pursuant to an approved state program, shall have the 
power and authority to construct and operate a plant or plants 
for the control and treatment of water pollution resulting from 
the mine.'' And also, ``No control or treatment under this 
subsection shall in any way be less than that required under 
the Federal Water Pollution Control Act.''
    Section 4(b) of the discussion draft before us amends that 
by adding at the end, ``unless for areas within that state 
there exists a state Memorandum of Understanding approved under 
Section 405(m) of this Act.''
    So, therefore, it appears that this language would now 
allow the state to meet standards below the Clean Water Act, as 
long as there is an MOU. I don't know if that is the intent of 
the bill, but it does seem to me that it goes far beyond the 
projects involving Community Reclaimers.
    Could each of you address what you believe the impact of 
this language would be, and whether you think this amendment, 
this language, is appropriate?
    I want to start with--anyone want to----
    Mr. Stefanko. I will jump in.
    Dr. Lowenthal. Good.
    Mr. Stefanko. The intent of the language is we want to meet 
the intent of the Federal law. But in the case of these 
particular AMD discharges, when these groups are going in--even 
when we go in--the site is already polluted. So, does the 
benefit outweigh the good here?
    If we can go in and address an AMD discharge that has been 
polluting a stream for over 50 years, and we can get it 90 
percent to where it needs to be, I think we should allow those 
opportunities to happen, especially for those groups, those 
community groups, who live in these communities. And there are 
kids in these communities that have never realized what a clean 
stream looks like, because all they have ever seen is this 
orange stream.
    So, the intent is for those that are covered under SMCRA, 
which is what we will operate under----
    Dr. Lowenthal. Right.
    Mr. Stefanko [continuing]. And if that project is approved 
under SMCRA--so it might be a matter of clarifying that 
language in there to ensure that it only covers what we are 
trying to do, which is--we are already doing these projects 
with the authority under SMCRA, and we just want those to be 
able to continue without the concern of the----
    Dr. Lowenthal. So, you believe that the language might be 
vague or something that might need to be clarified?
    Mr. Stefanko. Yes, it probably would need a little bit more 
clarification.
    Dr. Lowenthal. Mr. Kay, do you have any response?
    Mr. Kay. We have been looking at that section, too, with a 
little bit of confusion. I think clarity is the most important 
thing to offer there, but I very much agree with Mr. Stefanko 
about the need for states to be able to improve streams, even 
if they cannot quite----
    Dr. Lowenthal. Got it. And we understand what you are 
getting at. But it does seem that there is the potential for 
this to go far beyond the Community Reclaimers, just by the 
very language that was presented, not so much the intent of the 
state and what they are doing.
    Do you have any comments on that, Mr. Wood?
    Mr. Wood. I will simply add that we read Section 4(m) to 
speak to remediate mine drainage on abandoned mine land and 
water within the state. That would be the purpose of the MOU. I 
think one of the substantive recommendations that we will offer 
in the coming days would be that we see some language that 
speaks about measurable improvements in water quality, or some 
such thing that clarifies the intent of the provision.
    Dr. Lowenthal. Thank you all. I have some more questions, 
but I am going to yield back now until we--thank you.
    Dr. Gosar. I thank the gentleman.
    I understand that those concerns have been raised as to how 
landowner liability will be handled for the Community Reclaimer 
projects.
    Mr. Stefanko, does the state of Pennsylvania enter into any 
sort of contract with landowners of the sites where Good 
Samaritans are conducting reclamation?
    Mr. Stefanko. The Commonwealth itself does not. The Good 
Samaritan groups that actually do the work that they submit to 
us do enter into agreements with the property owner to allow 
them access. We do provide grant funding out to groups to do 
this type of work, and one of the requirements that we do have 
at the Commonwealth is that they show us that they do have 
access to the property.
    There are a lot of property owners out there that are a 
little hesitant, especially a property owner that maybe the 
discharge is not currently on their property, but they are 
willing to donate a piece of their property such that they can 
build a treatment system on it. They would be hesitant that 
they would potentially then be liable. But we do require an 
access agreement to a property, so it can be built on the 
property.
    Dr. Gosar. Yes. You have examples of that, so that you are 
able to explain and give a detailed in situ-type of project 
that you could reference to the landowner?
    [No response.]
    Dr. Gosar. For example, if they are hesitant, you can 
actually take an example that actually went forward, and 
actually have them oversee that, the remedy.
    Mr. Stefanko. Yes. I mean, because there are a lot of good 
folks that want to build something.
    We have our own access agreements that we, at the 
Commonwealth, use that, as everybody in this room would 
probably know, has a lot more language in it that can be 
intimidating to a property owner regarding liability. But if we 
could provide some type of an access agreement to them that 
shows that they don't have that liability concern any more in a 
simplified manner, I think it would enhance that many more 
projects that we do get.
    As far as the individual agreements that maybe are entered 
into between the Community Reclaimer and itself, all we need is 
something from them showing that they do have access. That 
could come in any form. It could be something as simple as a 
letter. It could be a formal agreement, which could very much 
differ from an actual consent for right of entry that we, the 
Commonwealth, would enter into when we are building one of our 
own projects.
    Dr. Gosar. You kind of went into my next question, so this 
is for you and for Mr. Wood.
    Are the landowners granted a liability waiver during the 
execution of that project?
    Mr. Stefanko. Under Pennsylvania's Good Samaritan, yes.
    Dr. Gosar. Mr. Wood?
    Mr. Wood. It is blinking at me.
    [Laughter.]
    Mr. Wood. Yes. We work under the protection of the 
Pennsylvania Good Samaritan law, so in that case we just 
default to their standards.
    Dr. Gosar. And since I am on that subject, do we have 
documentation--I mean, Mr. Wood, you showed some documentation 
on the screens. Do we have videos that actually show past 
projects, from beginning to end?
    Mr. Wood. It is so interesting that you mentioned that. We 
were just talking before the hearing that what we want to do 
is, because it is so stunning----
    Dr. Gosar. Yes.
    Mr. Wood [continuing]. The before and after, we said there 
are tons of before-and-after shots we can share with you. But 
what would be really powerful would be to take a drone and fly 
over one of those orange streams, and then construct some 
passive wetland treatment systems as we do, and then fly over 
that same stream. And the result is stunning. I mean the water 
goes from yellow to clear.
    Dr. Gosar. Well, not just beginning and end, but during. I 
mean time lapse, the scientific exposes that show how it is 
done, you know? There are inquisitive minds out there that want 
to see that, and I think that is kind of a teaching tool that 
we miss if we don't.
    Mr. Wood. I agree with you. And knowing your passion for 
fly fishing, there is also a benefit at the end of the line at 
the end of the day.
    [Laughter.]
    Dr. Gosar. Absolutely, absolutely.
    Mr. Stefanko and Mr. Wood, once again, can the issue of 
landowner liability be addressed with the MOUs developed by the 
states, or through the contracts established by the states with 
landowners granting access to their property?
    Mr. Stefanko first.
    Mr. Stefanko. I believe that could be addressed through 
maybe a standardized access agreement that could be shared with 
them that would then be acceptable to be registered to get the 
Federal Good Sam. We could maybe potentially draft that 
agreement such that when we would submit this MOU to EPA for 
their approval, that it would satisfy the concerns that the 
property owner has signed the proper access, meets all the 
requirements, and addresses the concerns on liability.
    Dr. Gosar. Mr. Wood?
    Mr. Wood. I agree. We have some experience with this. It 
was mentioned earlier by Mr. Lowenthal about hardrock mining. 
We worked with the EPA during the Bush administration to 
develop a so-called Good Samaritan agreement for cleanup of 
hardrock mines that are implicated by CERCLA, and they came up 
with a standard policy that we now use with other landowners 
around the West.
    So, I am very confident that we can come up with something 
similar here.
    Dr. Gosar. I just want to compliment you, Mr. Wood, and 
your organization, because it is stellar, what it starts out 
with and what--the end of the line, when it is tugging on your 
fly, it makes a wonderful impact.
    Mr. Wood. Thank you, sir.
    Dr. Gosar. I appreciate it.
    I now recognize the gentleman from Virginia, Mr. Beyer, for 
his 5 minutes.
    Mr. Beyer. Thank you, Mr. Chairman, very much. Reclaiming 
abandoned coal mines and addressing mine draining is a huge 
issue in my Commonwealth.
    Virginia has over $421 million in priority sites waiting to 
be reclaimed, yet this year Virginia received less than $4 
million in AML grants. At that rate, we are looking at over a 
century to deal with these sites, and that does not even count 
the additional environmental damage that is caused by mountain-
top-removal mining, which has already flattened at least 67 
mountains in southwest Virginia.
    So, naturally, I am interested in any solution such as Mr. 
LaHood's bill that can help speed up the pace of this cleanup, 
as well as help the people of southwestern Virginia and other 
coal communities who are struggling with high unemployment and 
polluted water.
    Unfortunately, the President's budget announced yesterday 
would do nothing but hurt the people who need the most help. 
His new proposed budget eliminates funding for the Appalachian 
Regional Commission, cuts programs for health, clean water, 
clean air programs. In short, this proposed budget is callous 
and short-sighted, especially of the people who live in our 
coal communities.
    Thankfully, the Congress has taken more interest in the 
welfare of the people of Appalachia, particularly through the 
bipartisan pilot program to reclaim abandoned coal mines in a 
way that provides economic development opportunities. This year 
the program was expanded to include Virginia, which will 
receive $10 million to facilitate these sorts of community-
driven projects that have an economic development nexus.
    A little while ago we heard in this Subcommittee on the 
RECLAIM Act, which would make this pilot project permanent. And 
there are some changes that I think could be made to the 
RECLAIM Act and to this bill, but together they are a very 
powerful combination to provide critically-needed investment 
into the economy and the environment of southwest Virginia.
    So, Mr. Kay and Mr. Wood, could you give any concrete 
examples of the impact these bills might have on Virginia, and 
how these bills could act to improve the health and economic 
prospects of the people of the coal fields?
    Mr. Kay. Yes, we worked with a mining engineering firm last 
year to look at all the possibilities of RECLAIM in southwest 
Virginia. And one example in the city of Norton, there is a 2-
mile-long river walk, they call it the River Walk Project they 
are working on. It goes through an old coal processing facility 
that has some acid mine drainage issues and it is on the AML 
inventory. They are trying to create a river walk through that, 
get that cleaned up.
    And then, just across the street from that, they also have 
a highwall that is right in the middle of what should be a 
really good commercial development area. They are hoping to 
clean all that up, invest some additional funds, and really 
turn around the entire city of Norton. So, those are some of 
the exciting things that are going on, but it goes well beyond 
that, and we are very excited about the pilot money now going 
to Virginia.
    Mr. Beyer. If I can add to that, my friend, Jack Kennedy, 
is the clerk of the court in Norton, and is trying to make 
Norton and Wise County the UVA capital of America, if not the 
world, so I hope the RECLAIM funds help to do that.
    Mr. Kay. He has had no small part in making that happen, 
along with Congressman Griffith.
    Mr. Beyer. Yes, thanks.
    Mr. Wood, do you have any insight, and not just the 
Virginia coal fields, but coal fields in general?
    Mr. Wood. Well, I will start with Pennsylvania because, 
again, of the state Good Samaritan protection that they have 
offered. We have been able to do--there are over 250 active 
reclamation projects that are ongoing across the state, but one 
in particular, that I think has relevance for places like 
Virginia and other parts of Appalachia, is in the Babb Creek 
drainage.
    And there, the Babb Creek Watershed Association, one of 
these local watershed associations that has membership--TU 
members are a part of it--they worked to clean up over 14 miles 
of stream that is now a wild trout fishery. It was historically 
a dead, red stream, and now it is 14 miles of destination wild 
trout fishery. And people are coming there now to fish these 
waters that they had never been able to fish before.
    That is the kind of thing that we can promote all across 
Appalachia--and not just Appalachia, all across the country.
    Mr. Beyer. Great. Thank you all very much.
    Mr. Chair, I yield back.
    Dr. Gosar. I thank the gentleman. I now recognize the 
gentleman from New Mexico, Mr. Pearce, for his 5 minutes.
    Mr. Pearce. Thank you, Mr. Chairman. I appreciate the 
hearing on the bill today, and appreciate the input from both 
sides.
    I was listening to the opening comments of the Ranking 
Member and then the follow-up questions, and my read is that 
you are open to the idea, but this bill might need some 
manipulation.
    Mr. Chairman, I just think that is ultra-important. I might 
not have the same reservations about the exclusion on the 
states having some right, but if we could provide that 
protection in the language of the bill--and I talked to Mr. 
LaHood--I think it is imperative that we give as much assurance 
across the aisle, get this thing as bipartisan as we can, 
because it has been such a divisive issue. And it is such a big 
issue for us states that have mining interests that I would 
gladly work to see if we could accommodate.
    I would yield to the Ranking Member to make comments about 
that. I don't want to put words in your mouth.
    Dr. Lowenthal. Absolutely. What we are talking about is the 
clarity in the language, and we don't believe that the issues 
that we are raising go in any way against the intent of the 
bill, and we want to work. We just want to make sure, as some 
of the witnesses have pointed out, that they do add some needed 
clarity----
    Mr. Pearce. Absolutely.
    Dr. Lowenthal [continuing]. In understanding what that 
section really was, and what is appropriate.
    And I agree with you, this should be a bipartisan bill and 
we would like to work with you.
    Mr. Pearce. If the gentleman would yield just a bit 
further----
    Dr. Lowenthal. I yield back.
    Mr. Pearce. One of the things that affects us is Homestake 
Mine in my district, and they have been remediating for years. 
The EPA is thinking about changing the standard to where they 
would have to remediate naturally occurring minerals, and that 
seems like an untenable position. Is that something that you 
are open to discussing, too? Again----
    Dr. Lowenthal. Yes, I think we can----
    Mr. Pearce. I am not trying to catch you on a corner, I am 
just saying that----
    Dr. Lowenthal. I think we should be discussing that.
    Mr. Pearce. OK.
    Dr. Lowenthal. I would be open to discussing that, 
absolutely.
    Mr. Pearce. Yes, and that is probably----
    Dr. Lowenthal. We are not going to commit right now, but 
that is something that we can really clarify.
    Mr. Pearce. And I think that the company should have to 
remediate all the way that they can, but then it gets down to 
this--if you get to 95 percent and you cannot get any further, 
if you get into the naturally occurring, then we should have 
some further discussion.
    But if the gentleman is open to it, then I will commit that 
we will work--and Mr. LaHood--be happy to work on this. And I 
thank the gentleman for his comments.
    Mr. Stefanko, have you run into the problem I am discussing 
with the Homestake Mine in my district, that the government 
might change the game after you are in? And what have you all 
done about that? It is particularly thorny, because I was there 
visiting on the site about a year ago, and they expressed, OK, 
we are getting close. And now it looks like it may never end, 
because the minerals that they are trying to work on, some are 
naturally occurring.
    So, if you could tell me a little bit of your experience, 
that would be valuable.
    Mr. Stefanko. I am familiar with both the active and the 
abandoned, because I oversee both programs. On the active side, 
we have run into the issue that you are bringing up. But when 
we permit the site, we do a characterization of what that water 
should look like. And that would include historically what it 
was and what it naturally should be. But we have run into 
instances like that.
    On the AMD side, not so much. We know what the major 
constituents are that impact the streams to get them to 
recover. And when we go forward with a lot of these AMD 
projects, which are done through our Good Samaritan projects, 
which enhance our program, like I said earlier, we are getting 
back probably about 90 percent of what it should be sometimes. 
But doing nothing versus getting back 90 percent, to us, is a--
--
    Mr. Pearce. If I can jump in here before the last minute 
runs out, how about the expertise? Do you find that you all 
have developed enough expertise to not need the Feds on site, 
or is that something that you all think is very difficult? 
Again, I am thinking about for a state like New Mexico.
    Can you develop the local expertise, or is that Federal 
oversight needed and desired? Tell me a little bit about that.
    Mr. Stefanko. We have a great internal expertise, as well 
as along with some of our sister states. The addressing of acid 
mine drainage and treating acid mine drainage has a long 
history of improving to the point where we are today.
    And part of that does include a lot of our watershed groups 
who have engaged consultants and companies that are aware of 
how to treat it in various manners, and what we have known over 
the years. We have internal, but we also do external.
    I would say we, at the state of Pennsylvania--I would feel 
very confident that we do have the expertise. And we do reach 
out to our Federal partner, OSM--there is a lot of key staff in 
the OSM, at least--we deal with in PA--that have that knowledge 
with regards to the treatment of acid mine drainage, and we 
work with them a lot, as well.
    Mr. Pearce. Thank you, sir. I appreciate that and I yield 
back.
    Thank you, Mr. Chairman.
    Dr. Gosar. I thank the gentleman. I now recognize the 
gentleman from Pennsylvania, Mr. Thompson, for his 5 minutes.
    Mr. Thompson. Chairman, thank you so much, and I want to 
say thank you to the author of this bill. As a Member of 
Congress that has over $442 million in AML liabilities in a 
state that has $5 billion in AML liabilities, we do take great 
pride in the fact that much of the mining that fueled both the 
Industrial Revolution and the manufacturing of tanks and 
artillery to defend our Nation in World War I and World War II, 
a lot of that coal came out of Pennsylvania's Fifth District. 
But we also know that we have a responsibility now to get those 
mining sites that really did not have the technology and the 
insight cleaned up.
    First of all, Mr. Woods, thank you for being here. I am 
real proud that my home TU chapter possesses the Golden Trout 
Award, Spring Creek Chapter, and I think that is Amy sitting 
behind you there. You all have been a great partner in my work 
on this Committee, and in the Agriculture Committee with the 
Conservation and Forestry Watershed Subcommittee, the past 
three terms.
    I have enjoyed spending time out on these sites. It is 
amazing to watch, whether it is passive or active, processes 
are put in place, the reclamation that occurs to streams that 
run orange to be reclaimed into--and these are active mining 
sites, they are some of the best trout waters that I have 
experienced, and let alone the re-planning on those sites that 
are just a magnet for game. It is a good place to hunt and 
fish.
    Mr. Wood, can you discuss the variety of non-governmental 
entities that currently partner or would be encouraged to do so 
under this bill? And does this include both non-profit and 
private commercial businesses?
    Mr. Wood. Well, I think if the bill were to pass, you would 
see a groundswell of support for doing a lot of this kind of 
abandoned mine cleanup that, right now--I mean Pennsylvania 
sort of is a bastion, it is a hotbed of these watershed groups, 
because of the protection the state offers, that are out there 
doing restoration.
    As I mentioned earlier, there are 250 active projects that 
are happening right now in the West Branch Watershed alone. We 
have provided technical assistance to something like 75 
different watershed associations who are actively working on 
treatment projects.
    I think this would basically free up people like private 
landowners, who are just thoroughly intimidated by liability 
right now, maybe owners of hunt clubs, or things like that, 
that have a vested interest in conservation, they want to do 
the right thing, they just do not want the liability 
implications.
    I think more local communities would probably get involved 
than have been involved historically. I mean there is something 
in this for everyone. Anyone who has an interest in clean 
water, and anyone, presumably, who wants to maintain the value 
of their property, should have an interest in clean water, I 
think, would be an advocate, a supporter, and a partner in 
this.
    Mr. Thompson. I think the term you used, groundswell, is a 
great way to describe it. Because I would see that, as well. It 
is exciting.
    Mr. Stefanko, thank you for your service to the 
Commonwealth of Pennsylvania over many years, going back to 
your internship with PennDOT, but mostly with the Department of 
Environmental Protection.
    My question for you is, does Pennsylvania allow for re-
mining under the Good Samaritan program, and have companies 
sought to conduct a re-mining along with Good Samaritan 
reclamation projects?
    Mr. Stefanko. We do not allow re-mining under the Good 
Samaritan Act. All of our re-mining is done under the Title V 
program. We have an extensive re-mining program that works very 
well, and it is all under the regulatory arm.
    Mr. Thompson. Well, a follow-up question, since 
Pennsylvania already has a program in effect, will this 
legislation have any unintended consequences in Pennsylvania, 
as a result of that?
    Mr. Stefanko. None, to my knowledge. If anything, it will 
further enhance Pennsylvania's program. I think we can increase 
from the 79 and get a lot more groups and communities 
interested in doing these types of projects, which is only a 
benefit, because as you well know of the problems we have in 
PA, and we do not have the funding to do all of those.
    Mr. Thompson. Right.
    Mr. Kay, in your testimony you mentioned the issue of re-
mining and stated your opinion that incidental coal removal can 
facilitate reclamation by reducing costs without causing more 
harm to the environment. Can you explain what you mean when you 
referred to incidental coal removal in your testimony, please?
    Mr. Kay. Yes, thank you, Congressman. In some cases during 
reclamation there is really no way to do it without removing a 
little bit of coal, especially for some large highwalls. There 
is really no way around it, so you are going to get that.
    I believe in the state of Pennsylvania they have a good way 
of defining incidental coal removal versus re-mining. I think 
that is a difficult thing to do, and I hope one that we do not 
have to tackle through this bill, but that is still something 
to make clear that it is important.
    Mr. Thompson. Thank you.
    Thank you, Chairman.
    Dr. Gosar. I thank the gentleman and now recognize the 
gentleman from Arkansas, Mr. Westerman, for his 5 minutes.
    Mr. Westerman. Thank you, Mr. Chairman. Thank you to the 
witnesses, and thank you to my colleague, Mr. LaHood, for 
proposing this legislation. I agree, there is no reason this 
should not be a bipartisan piece of legislation.
    I am reminded of the hearings we had in the Full Committee 
on the Gold King Mine spill last year, and that is probably a 
crash course on how not to do mine reclamation. I was very 
disappointed as we got into the details on that about how there 
were no professional engineers involved in the planning 
process, there were no drawings or documentation. And we were 
talking about liability here, and, ultimately, I still don't 
think anybody has been held accountable for that mine spill 
last year.
    But in reading this bill in Section 3, I do want to point 
out there has been a question about liability, but one thing 
that is very positive, it says, ``A description of the proposed 
project, including any engineering plans which must bear the 
seal of a professional engineer that must be submitted.''
    So, when you do the proper planning and the engineering on 
the front end, you are mitigating the liability and reducing 
the amount of liability that you actually would have. We may 
need to do some more work, but I think this is definitely 
moving in the right direction.
    When we are thinking about the Gold King Mine, and we talk 
about acidic water, I know that is a problem that can be there 
in treating mine drainage, and that is one of the most 
challenging aspects of mine reclamation. Those states face not 
only technical challenges, but also compliance challenges under 
the law.
    Mr. Stefanko, how has Pennsylvania handled the problem of 
treating acid mine drainage?
    Mr. Stefanko. We have an internal abandoned mine land 
program, where we get the Federal grants. We do our own 
projects to treat the acid mine drainage, which is done through 
our own process, where we have in-house engineering, or we 
consult that out. Projects are designed and built all under the 
Commonwealth rules and regs.
    We also have this piece here, which is where we have a lot 
of our non-government entities and watershed groups that have a 
lot of interest in it. We have a number of grant programs. One 
of our biggest and probably most well-known is the Growing 
Greener program, where groups provide us a project that is 
submitted, it is reviewed and done through a review process, 
including a technical review, and whereby then we would provide 
funding back to them for that watershed group then to build a 
treatment system to address the AMD.
    It can be done either passively or actively. Actively, 
obviously, is more costly, because of the O&M costs. So, there 
is the passive, but we look at all of these different aspects 
when we are actually going to design and/or provide grant funds 
and/or monies or look at these projects that we get under the 
Good Samaritan Act, to ensure that they are being properly 
designed and built, and address the type of acid mine drainage 
that it is.
    Mr. Westerman. Yes. And, Mr. Wood, same question to you 
about how has your organization approached such projects. And I 
will say that Arkansas may not be well known for trout fishing, 
but we have probably have some of the best trout fishing in the 
country, some of the nicest trout streams there, and really, if 
you want to catch really big trout, come to Arkansas.
    [Laughter.]
    Mr. Wood. I think you had the U.S. record largest trout 
caught out of the white, actually.
    Mr. Westerman. The brown trout.
    Mr. Wood. Yes, a big brown trout. It was caught by, like, a 
10-year-old on a Snoopy rod, or something.
    Mr. Westerman. Something like that.
    [Laughter.]
    Mr. Wood. So, as Mr. Stefanko said, we work almost as an 
adjunct to the state in our cleanup. In Pennsylvania, we will 
submit a plan to them, it will be reviewed, and they will 
approve it.
    Largely, what we have done in places like Kettle Creek are 
passive treatments, where we have constructed wetlands that we 
would sweeten with lime, and then we divert the stream through 
these constructed wetlands that then sweeten the water so that 
by the time it returns to the stream, its pH is in good shape.
    Mr. Westerman. And my understanding is, even with some of 
the best water treatment techniques available, the stream 
sometimes still cannot meet the Clean Water Act standards. Can 
you explain that?
    Mr. Wood. Well, there are--you know, I am a political 
science major, you may not want me to do that.
    [Laughter.]
    Mr. Wood. But typically what happens--fairly low cost, this 
isn't intensively engineered stuff. I mean for several hundred 
thousand dollars, you might be able to get to 80 or 90 percent 
improvement, but it might be a couple million dollars to get 
that additional increment. And----
    Mr. Westerman. So, you get some diminishing returns, but 
even though they might not meet the Clean Water Act standards, 
they can still support wildlife habitat?
    Mr. Wood. And naturally reproducing trout populations.
    Mr. Westerman. Which is a pretty high standard.
    Mr. Wood. That is exactly right.
    Mr. Westerman. I yield back.
    Dr. Gosar. I thank the gentleman and now recognize the 
gentleman from Colorado, Mr. Tipton, for his 5 minutes.
    Mr. Tipton. Thank you, Mr. Chairman. I apologize that I had 
to step out, so if I get a little redundant, I hope you will 
forgive me.
    I found it interesting, when we have had the conversation 
going on, and understand the admirable draft that my colleague, 
Mr. LaHood, is putting forward, to be able to address it. It 
points specifically to a lot of challenges that we are also 
facing, in terms of hardrock mine cleanup, as well, with Good 
Samaritan legislation that we are trying to be able to put 
forward.
    So, I would like to ask Mr. Wood a couple of questions, if 
you would. And if you want the actual best-tasting fish caught 
out of a stream, those come out of Colorado.
    Mr. Wood, in your testimony you stated that, as an NGO, 
your organization is not well suited to be able to apply for or 
to hold a discharge permit. Can you go into maybe a little more 
detail for us, and for everyone, why that is the case?
    Mr. Wood. Yes, sir. And I want to thank you, Mr. Tipton, 
for your leadership on the hardrock side of this equation in 
Colorado, as well. And, just for the record, it was not me that 
said anything about fish tasting.
    Mr. Tipton. OK.
    Mr. Wood. We are big believers in catch and release at 
Trout Unlimited.
    So, NPDES permits, the non-point discharge elimination 
system, I think. Is that right? They are very expensive to get, 
and often they are associated with perpetual treatment systems, 
which a non-profit entity like mine is not well suited to have. 
And frankly, just the liability associated with holding such a 
permit is a profound disincentive for groups like TU to do 
that. We have never even tried, for example.
    Mr. Tipton. And to clarify, just to be able to do the right 
thing, to try and be able to clean up some of these areas.
    I was a little curious on the slide that you put up with 
the passive system. And it actually goes to my colleague, Mr. 
Westerman's question, in terms of being able to comply with the 
Clean Water Act. That is not often the case, is it, with the 
passive systems? Is that effectively seeking the perfect to 
opposition to the good, and----
    Mr. Wood. Right.
    Mr. Tipton [continuing]. Actually impacting our ability to 
move the ball forward to be able to clean up some of these 
streams, and to be able to create a better environment?
    Mr. Wood. I think that is right, sir. I mean, again, 
remember, we are not talking about places where we can even 
hold people accountable any longer. And this is especially the 
case with some of your western hardrock mines. Those people are 
100 years gone.
    But to the extent that we can make it easier for people who 
want to make the world a better place, who want to make the 
water cleaner for their kids, I mean that is something everyone 
should be interested in doing.
    Mr. Tipton. You know----
    Mr. Wood. And I think that is what this bill does.
    Mr. Tipton. I agree with you. And talking about it, do you 
believe, when we are talking about these passive systems, that 
an AML treatment system, passive water treatment system, 
should--when we are going to materially improve those water-
quality systems, that it should be a point of discharge for 
compliance purposes under the Clean Water Act? Would that be 
useful?
    Mr. Wood. We would like to see some language inserted into 
the bill--and this came up a little earlier, I am not sure if 
you were here or not--where we talk about substantial or 
significant improvements to water quality. There should be an 
upward trend, anyway, there should be an improvement. And that 
is what this is all about.
    Mr. Tipton. Great. Thank you so much. And I didn't mean to 
imply that you were eating the fish.
    [Laughter.]
    Mr. Tipton. So, Mr. Stefanko, I thought it was pretty 
curious, listening to you, and I appreciate your comments. In 
your testimony, you said 90 percent--where you achieved that 
cleanup to where it should be, we should be able to go forward. 
Do you have anything to be able to add to some of these 
treatment systems, those points of discharge, how that is going 
to be a positive for us with the passive systems?
    Mr. Stefanko. I am not sure I actually understand what you 
are asking.
    Mr. Tipton. Well, do you have anything to be able to add on 
the treatment systems as a point of discharge, in terms of some 
of the comments that we----
    Mr. Stefanko. Basically, when I said about achieving 90 
percent, one of the things--and I think the Chairman might have 
mentioned this--is the technology has advanced, and we have 
seen it evolve even in the many years since I started in the 
Abandoned Mine Land Program.
    If we can go out there with a current technology and we can 
get to 85, 90 percent, maybe next year something else is going 
to come along that will get us to the other 10 percent.
    It has been an ongoing thing in Pennsylvania, as well as 
all of our sister states, that as technology improves, we are 
finding better and better ways to treat the acid mine drainage, 
and doing it in a more cost-efficient manner. And being that we 
have such a large problem, we need to continue to do that.
    So, if we can get to a point now, and knowing that maybe 
next year something else will come along better that we could 
either add to that system or replace that system in the future 
to get us to the end point, that is where we would like to go.
    Mr. Tipton. Great. Thank you. And I am just about out of 
time, Mr. Chairman. Thank you.
    Dr. Gosar. I thank the gentleman. But I have a question 
here. How big was that fish?
    Mr. Westerman. That brown trout?
    Dr. Gosar. Yes.
    Mr. Westerman. It was, what, 40 pounds or something?
    Mr. Wood. I want to----
    Mr. Westerman. Massive, yes.
    Mr. Wood. I think it was 40-ish. But, you know, we are 
anglers, so it could be a couple pounds on either side.
    Mr. Westerman. Was it that big?
    [Laughter.]
    Mr. Wood. Oh, no, it was as big as the child that caught 
it.
    Dr. Gosar. I know, but typically, a fisherman always says, 
``Hey, I caught the big one, let it go,'' and they are really 
telling you that it is this size--a deception.
    Mr. Westerman. We have this amazing tool called Google. I 
will get back to you.
    [Laughter.]
    Dr. Gosar. OK. The gentleman from Georgia, Mr. Hice, is 
recognized for 5 minutes.
    Dr. Hice. Thank you, Mr. Chairman. While we are on it, I 
will say that we live on Lake Oconee in Georgia. And just last 
week while we were here, my wife sent me pictures of five fish 
that she caught that day, one of which she cleaned, fried it 
up, and ate it. And I would challenge anyone on the best 
tasting fish. She knows how to do it extremely well.
    But I do thank you for holding this hearing, Mr. Chairman. 
And, as you are aware, I partnered with my good friend, Mr. 
Lowenthal, on the Bureau of Land Management Foundation Act, and 
that was a great step forward for the bipartisan goal of 
protecting our environment through the cleanup of mines on BLM 
lands. And I thank the gentleman for that.
    And I think pretty much we all agree that we believe God 
gave us this land that we live in, and we should work it to our 
benefit. But at the same time, we have the enormous 
responsibility to be good stewards and to be good caretakers of 
the land that we love.
    I just want to say thank you to my good friend, Mr. LaHood, 
on his efforts on this bill that will help the process of 
cleanup from a different angle.
    And again, the Ranking Member, thank you for your 
willingness to work on adjustments and clarifications on this, 
so that we can work together in this regard.
    I do want to go back on some of Mr. Tipton's comments, 
particularly regarding the EPA. I understand that they have 
attempted to solve some of the problems posed by the Clean 
Water Act on the compliance side of things. In fact, there were 
a couple of guidance memoranda explaining under what conditions 
they would waive enforcement; and states also have engaged with 
the EPA to address some of the compliance challenges and some 
of the issues and guidelines, outlines, how they can improve 
water quality.
    So, kind of within all this context, Mr. Wood, let me ask 
you. Although the EPA has put out this guidance, why haven't 
the states--why hasn't this gone anywhere? Why isn't there any 
compliance relief?
    Mr. Wood. Are you speaking specifically about hardrock 
mines, or coal mines?
    Dr. Hice. Well, specifically with the acid mine drainage 
abatement process, all that. It just seems to not be getting 
the relief needed.
    Mr. Wood. So, I want to commend the EPA, because we did 
work well with them to come up with this so-called Good 
Samaritan provision, which does relieve a lot of the liability 
associated with cleaning up so-called dry sites for hardrock 
mines that are regulated under CERCLA.
    And those cleanups are relatively straightforward, too. I 
mean it often involves simply digging a ditch, lining it, 
bulldozing material--acid mine leaching material--into the 
ditch, covering it with parent material, and then putting an 
impermeable liner over it and digging a French drain. Again, it 
is not complicated work.
    And that is 80 percent of the problem with dry sites. Dry 
sites represent 80 percent of the problem in the West. The 
really tough problems, though, are associated with these 
draining adits that implicate the Clean Water Act. And EPA has 
tried to offer guidance on that front, as well. But at least my 
organization did not find enough comfort in that, that the 
liability really was significant enough that we would want to 
engage.
    Dr. Hice. Well, that is really what I am trying to get 
toward.
    So, can citizens still sue? I mean the Good Samaritan does 
not cover everything.
    Mr. Wood. Right, that is right. Citizens can still sue 
under the Clean Water Act. Citizen suits are a part of that 
law.
    Dr. Hice. For projects that do not meet the standards of 
the Clean Water Act.
    Mr. Wood. Right, which is one reason why groups like mine 
have not, to date, stepped up and taken advantage of that 
guidance that EPA has put out there to try to make it easier to 
do those cleanups.
    Dr. Hice. So, we have this huge hurdle in the way--what is 
it going to take to get over that?
    Mr. Wood. Well, I think, as we are doing right now with 
coal, some good-faith conversations to make very minor 
adjustments to the laws that are really important, and that TU 
really supports.
    I mean, make no mistake about it. We are the most full-
throated advocate for the Clean Water Act there is. But just 
some minor tweaks that make it easier to make improvements to 
water quality that may not be perfect, I think, is what we are 
looking for.
    Dr. Hice. So, although there have been attempts to clarify 
with the EPA, there is still work to do to provide legal cover. 
Is that the bottom line?
    Mr. Wood. Yes.
    Dr. Hice. OK, thank you. Thank you, Mr. Chairman.
    Dr. Gosar. I think the gentleman is looking for trust. 
Trust is a series of promises kept. And I think we are sitting 
on that application. That is why we want to see visual examples 
of that, because that goes a long way.
    So, I applaud the gentleman for his questions, I applaud 
the gentleman for bringing the legislation forward, and the 
cooperative spirit that we see today.
    I thank the witnesses for their valuable testimony and the 
Members for their questions. The members of the Committee may 
have some additional questions for the witnesses, and we will 
ask you to respond to these in writing.
    Under Committee Rule 3(o), members of the Committee must 
submit witness questions within 3 business days following the 
hearing. And the hearing record will be held open for 10 
business days for these responses.
    If there is no further business----
    Mr. Westerman. Mr. Chairman?
    Dr. Gosar. Yes?
    Mr. Westerman. For the record, can I respond to your 
question? The world record German Brown Trout----
    [Laughter.]
    Dr. Gosar. I want to hear this.
    Mr. Westerman. Was 40 pounds and 4 ounces, caught from the 
Little Red River in Arkansas in 1992.
    Dr. Gosar. Wow. That is a fish.
    Well, having been up in Alaska, that is the only thing I 
was going to comment on, is his consistency.
    So, without further objection, the Subcommittee stands 
adjourned.

    [Whereupon, at 3:25 p.m., the Subcommittee was adjourned.]

                                 [all]
</pre></body></html>
